<html>
<title> - PROTECTING OUR MOST VULNERABLE RESIDENTS: A REVIEW OF REFORM EFFORTS AT THE DISTRICT OF COLUMBIA CHILD AND FAMILY SERVICES AGENCY</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




PROTECTING OUR MOST VULNERABLE RESIDENTS: A REVIEW OF REFORM EFFORTS AT 
       THE DISTRICT OF COLUMBIA CHILD AND FAMILY SERVICES AGENCY

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 16, 2003

                               __________

                           Serial No. 108-24

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

87-806              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 16, 2003.....................................     1
Statement of:
    Ashby, Cornelia, Director, Education, Workforce, and Income 
      Security, U.S. General Accounting Office; Dr. Olivia A. 
      Golden, director, District of Columbia Child and Family 
      Services Agency; Judith Meltzer, deputy director, Center 
      for the Study of Social Policy; Anne E. Schneiders, esq., 
      chair, the National Association of Counsel for Children, 
      Washington Metro Chapter; Jennifer Massengale, J.S., MSW, 
      acting executive director, D.C. Children's Advocacy Center; 
      Marilyn R. Egerton, deputy director, Foster and Adoptive 
      Parent Advocacy Center; and Judith Sandalow, executive 
      director, the Children's Law Center........................    10
Letters, statements, etc., submitted for the record by:
    Ashby, Cornelia, Director, Education, Workforce, and Income 
      Security, U.S. General Accounting Office, prepared 
      statement of...............................................    13
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia, prepared statement of...................     4
    Egerton, Marilyn R., deputy director, Foster and Adoptive 
      Parent Advocacy Center, prepared statement of..............    99
    Golden, Dr. Olivia A., director, District of Columbia Child 
      and Family Services Agency, prepared statement of..........    38
    Massengale, Jennifer, J.S., MSW, acting executive director, 
      D.C. Children's Advocacy Center, prepared statement of.....    85
    Meltzer, Judith, deputy director, Center for the Study of 
      Social Policy, prepared statement of.......................    57
    Norton, Hon. Eleanor Holmes, a Delegate in Congress from the 
      District of Columbia, prepared statement of................     8
    Sandalow, Judith, executive director, the Children's Law 
      Center, prepared statement of..............................   112
    Schneiders, Anne E., esq., chair, the National Association of 
      Counsel for Children, Washington Metro Chapter, prepared 
      statement of...............................................    70

 
PROTECTING OUR MOST VULNERABLE RESIDENTS: A REVIEW OF REFORM EFFORTS AT 
       THE DISTRICT OF COLUMBIA CHILD AND FAMILY SERVICES AGENCY

                              ----------                              


                          FRIDAY, MAY 16, 2003

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in room 
2154, Rayburn House Office Building, Hon. Tom Davis (chairman 
of the committee) presiding.
    Present: Representatives Tom Davis, Van Hollen, and Norton.
    Staff present: Keith Ausbrook, chief counsel; David Marin, 
director of communications; Scott Kopple, deputy director of 
communications; Victoria Proctor, professional staff member; 
Teresa Austin, chief clerk; Joshua E. Gillespie, deputy clerk; 
Shalley Kim, legislative assistant; Early Green, minority chief 
clerk; Jean Gosa, minority assistant clerk; and Cecelia Morton, 
minority office manager.
    Chairman Tom Davis. Good morning and welcome to today's 
oversight hearing on the District of Columbia Child and Family 
Services Agency [CFSA].
    This hearing is a continuation of the Government Reform 
Committee's oversight of the child welfare system in the 
District. During the 106th Congress, the Subcommittee on the 
District of Columbia held hearings to examine the status of 
CFSA while it was under Federal court-appointed receivership.
    Last Congress, the subcommittee continued its examination 
of the city's child welfare system with a special focus on the 
reorganization of its judicial component, the D.C. Superior 
Court Family Division. Congress worked with D.C. court 
officials, government, and community leaders to create the D.C. 
Family Court.
    Last year, I requested a followup GAO report on the status 
of reform efforts at CFSA. Specifically, GAO examined the 
Agency's performance measures and compliance with the Adoption 
and Safe Families Act [ASFA], the implementation of key foster 
care policies, and the relationship between the Agency and the 
family court.
    GAO's preliminary findings identify some critical areas 
that have yet to be addressed by CFSA. For instance, the Agency 
must still comply with ASFA requirements regarding the 
termination of parental rights, permanency hearings, and 
notification to participants for hearings and reviews.
    Furthermore, I am concerned by the delay in establishing 
policies related to a child's permanency goals, the licensing 
of foster homes, social worker visitation, and parental 
visitation in reunification cases. Also, GAO's findings 
demonstrate that the Agency needs to do a better job of 
entering data into the FACES case management system to ensure 
the most accurate and relevant information is available to 
caseworkers.
    Many of the challenges that CFSA must address are 
comparable to those faced by child welfare agencies nationwide. 
They include the recruitment and retention of caseworkers, 
foster families, and adoptive families. Our witnesses represent 
a variety of participants in the child welfare system and can 
provide insight and recommendations on how CFSA can meet these 
challenges.
    It is a daunting task to rebuild an Agency, establish and 
implement new policies and procedures, and radically overhaul 
the Agency's infrastructure. Since the safety and well-being of 
children are at stake, this can't happen fast enough.
    But the Agency has made progress and I think it is 
important to highlight its achievements. Based on the GAO's 
preliminary results, I am encouraged by the CFSA's efforts to 
develop written plans to help it comply with some of the ASFA 
requirements and performance measures. I am also pleased to 
note the Agency's development of numerous foster care policies 
and, in the case of face-to-face intake interviews, their 
standards even exceed accepted best practices. Furthermore, 
CFSA's efforts to lower the number of underage children who are 
placed in group homes is commendable.
    Communication is the first step to ensuring that all 
components of the child welfare system, CFSA, the courts, and 
public and private agencies, work together to achieve the 
common goal of serving and protecting the city's most 
vulnerable children. The vital relationship between CFSA and 
family court is improving and includes regular meetings between 
the heads of both organizations. And they are working 
collaboratively to find constructive solutions to problems such 
as hearing schedule conflicts.
    Recently, CFSA met the minimum criteria necessary to end 
the probationary period and transfer the Agency from Federal 
receivership back to the District's jurisdiction. That was a 
great step forward for the Agency and the city. Now CFSA has 
until 2006 to complete the incremental steps laid out in the 
final implementation plan.
    So today's hearing will focus on CFSA's progress and the 
challenges it faces as it pursues reform efforts. How can CFSA 
best resolve staffing and operational problems in order to 
address the critical shortfalls identified by GAO? The Agency 
requires a stable, well trained, and experienced team. Without 
solid and consistent staffing levels, the Agency reform cannot 
be accomplished and children will not receive adequate 
services. While the salaries for social workers in CFSA are 
competitive, the Agency's low employee retention is linked to 
what many employees perceive as an unsupportive environment.
    Furthermore, I cannot stress enough my concern about the 
slow rate at which the Agency meets a child's permanency goal. 
For this very reason, approximately one-third of the children 
CFSA currently serves are teenagers. Many grew up in the 
system. How would they have benefited from a permanent 
placement? We will never know.
    To help us examine these questions, we have assembled a 
panel of experts who work with the city's abused and neglected 
children every day. I look forward to hearing from CFSA and the 
court monitor, as well as witnesses representing the 
perspectives of legal services providers, private agencies, and 
foster parents.
    I now recognize my colleague from the District of Columbia, 
Ms. Norton, for her opening statement.
    [The prepared statement of Chairman Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T7806.001
    
    [GRAPHIC] [TIFF OMITTED] T7806.002
    
    [GRAPHIC] [TIFF OMITTED] T7806.003
    
    Ms. Norton. Thank you very much, Mr. Chairman. I want to 
thank you, my good friend Tom Davis, for his continuing 
interest in this Agency, flowing in no small part from the work 
he and I did when he chaired the D.C. Subcommittee and this 
Agency was in a Federal receivership.
    I thank you for today's hearing concerning the progress of 
the District of Columbia Child and Family Services Agency since 
coming out of Federal receivership in June 2001. While CFSA is 
a city Agency, this hearing is an appropriate followup to the 
work Chairman Davis and I did when CFSA was in a Federal 
receivership.
    As a followup of that work, Chairman Davis requested a GAO 
report. This hearing is also appropriate because of our work 
with Majority Leader Tom DeLay in thoroughly revising the 
family court of the District of Columbia Superior Court and 
reenergizing the family court with 15 new judges and other 
personnel. That legislation, H.R. 2657, had to be written in 
Congress because Congress pays for the D.C. Courts, and alone 
has jurisdiction under the Home Rule Act to make changes in the 
Superior Court. However, D.C. Superior Court's new family 
division was drawn in full home rule consultation with D.C. 
officials and personnel.
    The District itself has literally had to reconstruct CFSA 
from the ground up. This committee in prior hearings found 
little progress under the Federal receivership. Meanwhile, 
Mayor Tony Williams and the D.C. Council were making 
considerable progress in improving other agencies. Therefore, I 
argued that the city should be allowed to reassume 
jurisdiction, and most in Congress who were familiar with the 
issues agreed. Ultimately the matter rested with the Federal 
district court, which returned the Agency to the District 
almost 2 years ago.
    As might be expected, in its early period out of 
receivership, CFSA had some distance to go. The district court 
has given the Agency until 2006 to come into full compliance. I 
will leave it to today's witnesses to evaluate the Agency's 
progress. However, especially considering the disrepair of the 
Agency, even as it emerged from receivership, many of the early 
objective measures are heartening. Of particular importance, 
the District has now created one unified Agency involving both 
abuse and neglect of children, eliminating confusing and 
counterproductive implementation and accountability.
    The committee should also find it encouraging that the 
District is meeting most of the requirements of our 1997 
Adoption and Safe Families Act, and has met a number of 
performance criteria. And it must be mentioned that this 
committee, which initially investigated CFSA receivership 
because of the death of a foster child, will be pleased that 
CFSA has both adopted and implemented appropriate child 
protection and foster care placement policies.
    I will be interested to learn more from today's witnesses. 
May I welcome all of today's witnesses, and thank them for 
their testimony.
    [The prepared statement of Hon. Eleanor Holmes Norton 
follows:]

[GRAPHIC] [TIFF OMITTED] T7806.096

[GRAPHIC] [TIFF OMITTED] T7806.097

    Chairman Tom Davis. Thank you.
    Members will have 5 legislative days to submit opening 
statements for the record.
    The first panel is Cornelia Ashby, Director, Education 
Workforce and Income Security, U.S. General Accounting Office; 
Dr. Olivia Golden, director, District of Columbia Child and 
Family Services Agency; Judith Meltzer, deputy director, Center 
for the Study of Social Policy; Anne Schneiders, Chair of the 
National Association of Counsel for Children; Jennifer 
Massengale, acting executive director, D.C. Children's Advocacy 
Center; Marilyn Egerton, deputy director of the Foster and 
Adoptive Parent Advocacy Center; and Judith Sandalow, executive 
director of the Children's Law Center.
    It is the policy of the committee that we swear all 
witnesses before they testify.
    [Witnesses sworn.]
    Chairman Tom Davis. What we will do is start with Ms. 
Ashby, and after everybody has given their testimony, we will 
ask some questions and if you want to add something at the end, 
you may do that. Your total statement is in the record. So for 
historical purposes and analytical purposes, your statement is 
in the record. You have 5 minutes to kind of sum it up.
    Ms. Ashby.

 STATEMENTS OF CORNELIA ASHBY, DIRECTOR, EDUCATION, WORKFORCE, 
AND INCOME SECURITY, U.S. GENERAL ACCOUNTING OFFICE; DR. OLIVIA 
  A. GOLDEN, DIRECTOR, DISTRICT OF COLUMBIA CHILD AND FAMILY 
 SERVICES AGENCY; JUDITH MELTZER, DEPUTY DIRECTOR, CENTER FOR 
 THE STUDY OF SOCIAL POLICY; ANNE E. SCHNEIDERS, ESQ., CHAIR, 
 THE NATIONAL ASSOCIATION OF COUNSEL FOR CHILDREN, WASHINGTON 
METRO CHAPTER; JENNIFER MASSENGALE, J.S., MSW, ACTING EXECUTIVE 
DIRECTOR, D.C. CHILDREN'S ADVOCACY CENTER; MARILYN R. EGERTON, 
 DEPUTY DIRECTOR, FOSTER AND ADOPTIVE PARENT ADVOCACY CENTER; 
  AND JUDITH SANDALOW, EXECUTIVE DIRECTOR, THE CHILDREN'S LAW 
                             CENTER

    Ms. Ashby. Mr. Chairman and Ms. Norton, I am pleased to be 
here today to discuss the preliminary findings from our study 
of the D.C. Child Family Services Agency that you requested. We 
will issue our final report later this month.
    My comments are based primarily on our analysis of data in 
the District's automated child welfare information system known 
as FACES. We verify the accuracy of the data, but for some of 
the data elements we needed, CFSA had not entered into FACES 
information for about two-thirds of its active foster care 
cases. Consequently, we obtained and analyzed information from 
paper case files to supplement FACES information for some 
cases. Most, but not all, of the cases with incomplete data 
originated prior to FACES going online in October 1999. Top 
CFSA managers told us including data in FACES for active cases 
that originated prior to FACES is not an Agency priority. In 
our full statement we discuss the importance of having 
accurate, timely, and complete information on all cases.
    In summary, CFSA has addressed various ASFA requirements, 
and met several of the selected performance criteria, 
established child protection and foster care placement 
policies, and enhanced its working relationship with the D.C. 
Family Court. However, much remains to be done. CFSA 
implemented six of the nine ASFA requirements, and met or 
exceeded four of the eight performance criteria. For example, 
CFSA signed a border agreement to achieve timelier placement of 
District children in Maryland, which relates to the ASFA 
requirement to us cross-jurisdictional resources to facilitate 
timely, permanent placements for children. However, CFSA did 
not fully implement ASFA requirements involving proceedings to 
terminate the rights of parents in certain situations, annual 
permanency review hearings, or notice of hearings and reviews.
    One of the selective performance criteria requires 60 
percent of children in foster care to be placed with one or 
more of their siblings. As of November 2002, 63 percent of 
children had such placements. The criteria for which CFSA's 
performance fell short was social worker visitation with 
children in foster care, placement of children in foster homes 
with valid licenses, progress toward permanency, and parental 
visits with children in foster care who have a goal of 
returning home. For example, none of the 144 children placed in 
foster care during the 2-month period prior to November 30, 
2002 received required weekly visits by a CFSA caseworker. CFSA 
has written plans to address two of the three ASFA requirements 
that were not fully implemented, and three of the four unmet 
performance criteria.
    CFSA has adopted child protection and foster care placement 
policies that are comparable to most, but not all, of those 
recommended by organizations that develop standards for child 
welfare programs. However, caseworkers did not consistently 
implement the six policies we examined. CFSA has policies for 
investigating allegations of child abuse, developing case 
plans, and establishing permanency goals for foster children. 
In addition, it has policies for managing cases, policies for 
licensing and monitoring group homes, plans for training staff 
in group homes, and a goal to reduce the number of young 
children in group homes.
    However, CFSA lacks some recommended policies, namely 
written timeframes for arranging needed services for children 
and families, limits on the number of cases assigned to a 
caseworker, and procedures for providing information about 
planned services for a child. For five of the six policies we 
examined, FACES data indicated that the percentage of foster 
care cases for which a policy was implemented ranged from 9 to 
83. This variation is due at least in part to the incomplete 
FACES data. For the sixth policy, CFSA could not provide 
automated data. CFSA officials told us they recently made 
changes to help improve the implementation of some of the 
policies we reviewed. Additionally, timeframes for implementing 
certain policies improved from 2000 to 2002.
    However, CFSA caseworkers still took longer than the 24 
hours prescribed to initiate investigations and complete safety 
assessments for some cases. For example, while caseworkers took 
an average of 30 days to complete safety assessments in 2000, 
the average time declined to 6 days in 2002.
    CFSA has improved its working relationship with the family 
court through its commitment to promoting improved 
communication and by expanding the service support it provides 
for court activities. However, CFSA officials and family court 
judges noted several hindrances that can strain their working 
relationship.
    Mr. Chairman, this completes my prepared statement. I would 
be happy to answer any questions you have.
    Chairman Tom Davis. Thank you.
    [The prepared statement of Ms. Ashby follows:]

    [GRAPHIC] [TIFF OMITTED] T7806.004
    
    [GRAPHIC] [TIFF OMITTED] T7806.005
    
    [GRAPHIC] [TIFF OMITTED] T7806.006
    
    [GRAPHIC] [TIFF OMITTED] T7806.007
    
    [GRAPHIC] [TIFF OMITTED] T7806.008
    
    [GRAPHIC] [TIFF OMITTED] T7806.009
    
    [GRAPHIC] [TIFF OMITTED] T7806.010
    
    [GRAPHIC] [TIFF OMITTED] T7806.011
    
    [GRAPHIC] [TIFF OMITTED] T7806.012
    
    [GRAPHIC] [TIFF OMITTED] T7806.013
    
    [GRAPHIC] [TIFF OMITTED] T7806.014
    
    [GRAPHIC] [TIFF OMITTED] T7806.015
    
    [GRAPHIC] [TIFF OMITTED] T7806.016
    
    [GRAPHIC] [TIFF OMITTED] T7806.017
    
    [GRAPHIC] [TIFF OMITTED] T7806.018
    
    [GRAPHIC] [TIFF OMITTED] T7806.019
    
    [GRAPHIC] [TIFF OMITTED] T7806.020
    
    [GRAPHIC] [TIFF OMITTED] T7806.021
    
    [GRAPHIC] [TIFF OMITTED] T7806.022
    
    [GRAPHIC] [TIFF OMITTED] T7806.023
    
    [GRAPHIC] [TIFF OMITTED] T7806.024
    
    [GRAPHIC] [TIFF OMITTED] T7806.025
    
    [GRAPHIC] [TIFF OMITTED] T7806.026
    
    Chairman Tom Davis. Dr. Golden.
    Dr. Golden. Good morning, Chairman Davis and Representative 
Norton. I am Olivia Golden, Director of the Child and Family 
Services Agency for the District of Columbia. I am delighted to 
have the opportunity to speak with you on the morning after 
U.S. District Court Judge Thomas Hogan approved the final long-
term implementation plan in the LaShawn lawsuit. This 
represents a major milestone in the District's 2-year reform of 
the child welfare system.
    Decades of neglect resulted in a lawsuit in 1989, and 
continued failure by the District resulted in 6 years of 
Federal court receivership beginning in the mid-1990's. In 
2000, however, Mayor Anthony Williams, the District Council, 
Representative Norton, and other leaders committed to 
implementing major reforms as conditions for return of child 
welfare to District control.
    In the first 2 years of District control, we have gotten 
CFSA out of probation, demonstrated momentum for significant 
positive change, and, for the first time, engendered hope that 
child welfare reform really can take place here. Now the 
implementation plan provides a solid blueprint for establishing 
a real safety net for children.
    Two examples show how broken the protective system for 
District children used to be and the very basic issues that we 
have to resolve to mend it.
    First, for years, children who had suffered the trauma of 
removal from their birth homes routinely spent 1 or more nights 
sleeping in the Child Protective Office because placements 
could not be located promptly. Today, no children sleep at CFSA 
because we find safe placements for them during the day. And 
for decades, abused and neglected children of all ages were 
virtually warehoused in group homes throughout the city.
    In May 2001, 99 children under age 6 and many more between 
age 6 and 12 were in group homes. Today we have cut those 
numbers by more than half by placing more children in family 
settings.
    My written testimony describes four areas of early 
important and measurable progress for children. This progress 
has been including more children in families, fewer in group 
settings; more timely investigations; more social worker visits 
and other indicators of safety and permanence; third, hiring 
and retaining more social workers, leading to reduced social 
worker caseloads; and fourth, hiring in-house clinical experts 
to enhance medical and mental health decisionmaking.
    My written testimony also summarizes several essential 
system reforms now underway. These are critical to improving 
outcomes for thousands of children on a sustained basis.
    First, as highlighted both in the opening statements and by 
GAO, CFSA, the family court, and the Corporation Counsel are 
working cooperatively for the benefit of children.
    Second, for the first time the key players in the child 
welfare system are focusing together collectively on ASFA 
compliance.
    Third, CFSA is focusing on quality not only internally but 
among its contracted providers.
    Fourth, CFSA is strengthening its formal policies to 
reflect reform. There is clearly more to do.
    Fifth, we are improving foster and adoptive parent 
recruitment, retention and support.
    And sixth, in terms of our FACES information system, 2 
years ago we could not tell which investigations were overdue, 
which cases were assigned to which workers, or how many visits 
we had made to children. Today our FACES computer system lists 
every child in our care and where he or she is living; and 
managers, supervisors and workers can access reports on key 
measures of safety and permanence at any time.
    Additional improvements to FACES lie ahead, but we have 
come a long way. Along with just 22 other States--that is the 
top half--we have an automated case management system that 
meets most Federal requirements. In fiscal year 2004, we intend 
to pursue full Federal certification of FACES as meeting all 
requirements, a status so far achieved by only four States.
    Finally, let me turn to challenges and next steps. The 
implementation plan is ambitious and comprehensive. It 
addresses all key areas of child welfare, and establishes 
specific timeframes for performance. Its requirements add up to 
the strong safety net that we all want for children and 
families.
    Four major challenges lie ahead. First, continued progress 
in recruiting and retaining social workers. Second, continued 
progress in recruiting, retaining, and supporting foster kin 
and adoptive parents; third, strengthening key partnerships, 
and I want to especially thank the committee for the important 
role that the family court legislation has played in 
strengthening our partnerships both with the court and with 
surrounding jurisdictions. I urge continued attention by the 
committee and Congress to supporting the District, Maryland, 
and Virginia as we seek to craft a truly metropolitan approach 
to the needs of children and families whose lives cross State 
boundaries.
    The fourth challenge is maintaining the momentum for reform 
over the long haul because there are no quick fixes.
    In conclusion, in the past 2 years, District leadership at 
all levels have demonstrated that we can turn around problems 
that have placed our children at risk for decades. Now we have 
both the great challenge and the great opportunity of working 
together to achieve our vision.
    Thank you so much for your commitment and support. I look 
forward to answering your questions.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Dr. Golden follows:]

    [GRAPHIC] [TIFF OMITTED] T7806.027
    
    [GRAPHIC] [TIFF OMITTED] T7806.028
    
    [GRAPHIC] [TIFF OMITTED] T7806.029
    
    [GRAPHIC] [TIFF OMITTED] T7806.030
    
    [GRAPHIC] [TIFF OMITTED] T7806.031
    
    [GRAPHIC] [TIFF OMITTED] T7806.032
    
    [GRAPHIC] [TIFF OMITTED] T7806.033
    
    [GRAPHIC] [TIFF OMITTED] T7806.034
    
    [GRAPHIC] [TIFF OMITTED] T7806.035
    
    [GRAPHIC] [TIFF OMITTED] T7806.036
    
    [GRAPHIC] [TIFF OMITTED] T7806.037
    
    [GRAPHIC] [TIFF OMITTED] T7806.038
    
    [GRAPHIC] [TIFF OMITTED] T7806.039
    
    [GRAPHIC] [TIFF OMITTED] T7806.040
    
    [GRAPHIC] [TIFF OMITTED] T7806.041
    
    [GRAPHIC] [TIFF OMITTED] T7806.042
    
    Chairman Tom Davis. Ms. Meltzer.
    Ms. Meltzer. Good morning, Delegate Norton and Chairman 
Davis. Thank you for your ongoing and intense interest in the 
functioning of the District's child welfare system.
    The District of Columbia's child welfare system emerged in 
January 2003 from court-imposed receivership. The placement of 
the Agency into receivership was a historic response by the 
Federal court to a malfunctioning child welfare system that was 
completely failing to protect and support children in its care.
    The receivership's end in 2003 is a significant and 
positive accomplishment. It does not mean that the District's 
child welfare system is consistently functioning at an 
acceptable performance level, nor that the District has 
achieved compliance with the LaShawn order. As the District 
emerged from receivership, I was responsible for working with 
Agency officials, the mayor's office and plaintiffs, to develop 
a court-ordered implementation plan. That plan is included as 
part of the written testimony.
    I am delighted that the U.S. District Court yesterday 
evening enthusiastically approved the plan, and I want to echo 
the court's observations about the positive cooperation of all 
parties in its development and the joint commitment to its full 
implementation. The plan is an enforceable order of the Federal 
court under the LaShawn decree; but as important, it reflects 
the vision for reform of the Child and Family Services Agency 
of the District of Columbia. The plan identifies specific 
performance outcomes and benchmarks, the steps and tasks 
necessary to achieve compliance, time lines for task 
accomplishment, and resources required for implementation. The 
requirements of the court's order and the plan are consistent 
with the Federal Adoption and Safe Families Act and the 
District of Columbia Adoption and Safe Families Act, as well as 
standards of professional practice.
    The LaShawn implementation plan sets ambitious, yet I 
believe feasible targets between now and December 2006 for 
District performance across the spectrum of child welfare 
practices and services.
    Among the most important are: One, continued improvement in 
the timeliness and quality of investigations of child abuse and 
neglect. Two, high-quality social work and supervisory 
practice. It requires that case planning with families begin as 
soon as the child or family enters the child welfare system. 
Three, wider availability of community-based supports for 
families to prevent children and families from entering the 
child welfare system. The plan requires a biannual needs 
assessment, the first of which is due December 2003. Four, 
enhanced services provisions so the children enter foster care 
placement only when their families cannot be assisted to 
provide them with safe and stable homes. Five, increased visits 
by social workers to children in placement to make sure that 
once the State assumes custody of the children, the State acts 
as a good parent. Six, development of an expanded range of 
high-quality family placement options to continue the progress 
to reduce the numbers of children who are in congregate care 
settings. The plan is built around the need to provide 
families, not beds, for children. Seven, providing reliable and 
accessible foster parent supports so placement disruptions 
decline and children experience fewer placement moves while 
they are in foster care. Eight, continued access to resources 
that children and families need, especially mental health 
services, substance abuse services, and comprehensive medical, 
psychological and educational services. Nine, locating adoptive 
families for the almost 1,100 children in this system who have 
a permanency goal of adoption.
    The plan also then requires steady and measurable 
improvement in several key infrastructure areas to support the 
practice changes.
    Among the most important are: One, the aggressive hiring of 
social workers, leading to rapidly declining caseloads. The 
plan requires that the social work caseloads be no more than 27 
by December 30 of this year, no more than 20 by June 30, 2004, 
and no more than 17 by September 2004. Meeting this requirement 
means that the District must effectively recruit, hire, and 
retain 45 new workers and supervisors by this September. Two, 
implementation of a high-quality training program for CFSA 
staff and for private Agency workers. Three, revamping the 
contract policies and procedures to establish clear and 
enforceable expectations for performance by private agencies 
related to achieving safety and permanency and well-being 
outcomes for children. The District is going to release new 
RFPs for services by September, and over the next 3 years they 
will develop clear, measurable performance outcomes as part of 
those contracts. Four, full implementation and enforcement of 
new licensing standards for foster homes, group homes, and 
independent living facilities. Five, revamping the Agency's 
administrative case review system and their quality assurance 
systems so they can more effectively monitor the quality of 
their own performance.
    I believe that the implementation plan with its ambitious 
but sequenced performance targets can be successfully 
completed, and must be. My confidence that the plan is doable 
is based upon my experience and knowledge from jurisdictions 
around the country. We know enough about what works, and we 
have evidence that positive outcomes for children and families 
can be achieved.
    Dr. Golden has assembled an enthusiastic team of competent 
child welfare professionals, and has mobilized the diverse 
talents of many staff within the Agency and from a broad range 
of private agency and community partners. In addition, and to a 
degree that far exceeds anything that I have witnessed in the 
many years I have been monitoring the LaShawn decree, the child 
welfare agency is working constructively with other agencies in 
District government.
    My written testimony also responds to your questions about 
the implementation of the Family Court Act. I am not going into 
that now in the interest of time.
    I also include in my written testimony some actions that I 
believe Congress can take to accelerate the positive change. I 
don't want to mislead the committee about the serious 
challenges that remain. The difficulties of creating and 
maintaining a skilled work force and of developing the 
substance abuse, mental health, and other resources that 
families and children need are significant, but I believe there 
is a renewed commitment to taking on these challenges, and I am 
optimistic that they can be met.
    I want to conclude by emphasizing the importance of 
continuing support for the work of the District's Child Welfare 
Agency. As external monitor, the Center for the Study of Social 
Policy will prepare periodic progress reports for the court, 
the District Government, the Congress, and the public, and we 
will work closely with the Agency to improve their internal 
quality assurance and results monitoring.
    With our continued efforts and shared commitment, I look 
forward to a day in the not-too-distant future when we can 
celebrate the accomplishments, rather than the deficiencies, of 
the system. Thank you.
    Chairman Tom Davis. Thank you.
    [The prepared statement of Ms. Meltzer follows:]

    [GRAPHIC] [TIFF OMITTED] T7806.043
    
    [GRAPHIC] [TIFF OMITTED] T7806.044
    
    [GRAPHIC] [TIFF OMITTED] T7806.045
    
    [GRAPHIC] [TIFF OMITTED] T7806.046
    
    [GRAPHIC] [TIFF OMITTED] T7806.047
    
    [GRAPHIC] [TIFF OMITTED] T7806.048
    
    [GRAPHIC] [TIFF OMITTED] T7806.049
    
    [GRAPHIC] [TIFF OMITTED] T7806.050
    
    [GRAPHIC] [TIFF OMITTED] T7806.051
    
    [GRAPHIC] [TIFF OMITTED] T7806.052
    
    Chairman Tom Davis. Ms. Schneiders.
    Ms. Schneiders. Good morning, Congressman Davis and 
Representative Norton.
    I am pleased to have this opportunity to address the 
committee from the perspective of one who has interfaced with 
the Agency on behalf of abused and neglected children as a 
guardian ad litem for almost 200 children over the years.
    CFSA has made progress in the implementation of the time 
lines set forth in the Federal legislation, but often at the 
expense of children rather than for their benefit. CFSA 
initiated the new time lines with the same programmatic model 
that continues to recruit and utilize the term ``traditional 
foster homes'' when there are no more traditional foster 
children.
    Today children coming into foster care come from 
experiences of domestic violence, physical or sexual abuse, 
substance abuse, HIV/AIDS and severe neglect. These are not 
candidates for traditional foster homes; that is, foster homes 
with no specialized training or support. Foster parents should 
not be recruited and led to believe that they will be caring 
for the traditional foster child; that is, a child without 
special needs. Every child coming into the foster care system 
today needs a therapeutic environment, and families need to 
know what will be expected of them when the child returns home, 
is adopted, or remains until age 21.
    As a result of the current policy of differentiating 
between traditional foster homes and therapeutic foster homes, 
some older children are left without homes and young children 
are placed in traditional foster homes and, again, are 
traumatized by loss when the goal is changed to adoption in 
accord with the ASFA time lines.
    CFSA needs to eliminate both the concept and terminology of 
traditional foster homes. All foster parents should be 
recruited as ``therapeutic,'' with the expectation that they 
will be caring for children with special needs. Foster parents 
who want only young children under age 12, as many specify, 
should be recruited as ``therapeutic foster to adopt'' homes, 
with the full realization that if the child is placed in their 
home and the goal is changed to adoption, they will be expected 
to consider adopting this child. Very young children should not 
be placed in foster homes, become part of that family, form 
attachments, and have to be removed when the permanency goal is 
changed to adoption and told to start all over again with yet 
another family. Many of these cases constitute emotional abuse 
far more damaging than the original abuse which brought the 
child into care. Foster parents who only want to ``foster'' and 
not to adopt, should be told that in all probability they will 
be given children 13 or older. Such children will likely not be 
adopted, but will move on to independence.
    The ASFA time lines, while well-intentioned, have caused 
very traumatic disruption for many young children who formerly 
would have grown up in foster care. When the ASFA time lines 
were created, there should have been a rethinking of the policy 
on how foster homes are recruited, trained, and utilized.
    Child Family Service has formulated various policies which 
have significantly altered the manner of delivering services to 
children and families. Many of these are undoubtedly good, but 
many are regressive and punitive. The problem is that these 
policies are formulated internally, with little input from 
others serving the children, and with virtually no knowledge of 
such policy changes by those outside.
    Attorneys advocating for children as court-appointed 
guardians often learn of policy changes when they try to obtain 
services. They then learn that the service has been restricted 
in duration, as in the case of mentors and tutors, or that the 
limitation placed on children seeking independent living 
programs which used to be available at age 16, was changed to 
18 with no notice. Attorneys must now sign statements of 
confidentiality when attending administrative reviews or be 
barred from the meeting. And yesterday I learned that the 
summer camp program is no longer being offered to children this 
summer.
    These policy changes are not made available to people who 
are affected by them or who are advocating for children who 
will be affected. To date there is no policy manual available 
to replace the volumes of policies available prior to the 
receivership. This seems to be a step backward. CFSA should be 
encouraged to circulate proposed policy changes in draft form 
and elicit input from persons implementing the policy regarding 
the impact on children or families.
    CFSA has a solid core of competent and committed social 
workers truly dedicated to the care of children and supporting 
families. With MSW degrees, they are probably the best educated 
of any jurisdiction in the country. This is the greatest 
resource available to the Agency. Yet it is tragic that 
retaining these workers continues to be a serious problem. 
Social workers continue to leave, albeit at a slower rate than 
formerly, but still causing harmful disruption of relationships 
and case management services. Many senior workers grounded in 
child welfare practice, with the institutional memory of the 
Agency, have left or been terminated. New workers right out of 
school do not bring to the practice the experience needed.
    Social workers still cite high caseloads and lack of 
appreciation of the drain this work places on them. Following a 
previous hearing where it was reported that caseloads were down 
in size, I asked every worker with whom I interacted over the 
next 2 weeks how large their caseload was, and was consistently 
told, ``In the thirties,'' or `I just got six new cases 
today.''
    Recruitment is less of a problem than retention. D.C. has 
five schools of social work pumping out new graduates every 6 
months. The fact that they submit to the extensive training and 
shadowing of experienced workers, yet leave so quickly, is of 
major concern.
    Over a year ago I was asked to serve on a committee to deal 
with the recruitment and retention of workers. The committee 
met once, discussed some goals and possible action, and to my 
knowledge never met again.
    Congress needs to enlist the services of an outside group 
to interview current staff to identify what is at the core of 
dissatisfaction so great that they are willing to forgo very 
good salaries and benefits rather than stay with the Agency. 
Retention will not occur until the cancer eating at so many 
line workers is identified and addressed.
    There appears to be far less friction between the family 
court and CFSA as the family court has made a concerted effort 
to accommodate the demands and pressures of the social workers. 
Hearings start on time and are scheduled in a manner that does 
not keep parties waiting; judges are more willing to 
acknowledge the quality of the work of social workers; 
corporation counsel attorneys are more involved with CFSA and 
facilitate communication between the Agency and other 
attorneys.
    The greatest difficulty seems to come when the family court 
judges order the Agency to provide services. CFSA is more 
aggressive in challenging the court's authority to issue such 
orders, especially where money is concerned. I, as guardian ad 
litem, find it necessary to file responses on behalf of 
children far more often than ever before in support of a 
court's order. In most instances there is a reluctance on the 
part of CFSA to make the resources available to children; that 
is, to provide funding for a particular program or service. The 
best interests of the budget seem to override the best interest 
of the child.
    In conclusion, I am sure there are areas of great progress, 
as well there should be. As an advocate for children, I find it 
necessary to continue to address those areas where children 
continue to be harmed by Agency practice.
    I thank you for this opportunity to address some of these 
issues.
    Chairman Tom Davis. Thank you very much. That was very 
helpful.
    [The prepared statement of Ms. Schneiders follows:]

    [GRAPHIC] [TIFF OMITTED] T7806.053
    
    [GRAPHIC] [TIFF OMITTED] T7806.054
    
    [GRAPHIC] [TIFF OMITTED] T7806.055
    
    [GRAPHIC] [TIFF OMITTED] T7806.056
    
    [GRAPHIC] [TIFF OMITTED] T7806.057
    
    [GRAPHIC] [TIFF OMITTED] T7806.058
    
    [GRAPHIC] [TIFF OMITTED] T7806.059
    
    [GRAPHIC] [TIFF OMITTED] T7806.060
    
    [GRAPHIC] [TIFF OMITTED] T7806.061
    
    [GRAPHIC] [TIFF OMITTED] T7806.062
    
    [GRAPHIC] [TIFF OMITTED] T7806.063
    
    [GRAPHIC] [TIFF OMITTED] T7806.064
    
    Chairman Tom Davis. Ms. Massengale.
    Ms. Massengale. Good morning, Chairman Davis, 
Representative Norton, and members of the Committee on 
Government Reform. It is an honor to be invited to testify 
before you today on behalf of Safe Shores, the D.C. Children's 
Advocacy Center.
    The CAC is a nonprofit public/private partnership created 
to provide a coordinated and child-friendly response to child 
abuse in the District of Columbia.
    To accomplish this goal, we work with a multidisciplinary 
team of local and Federal agencies, including the Metropolitan 
Police Department, the Office of the Corporation Counsel, the 
U.S. Attorney's Office, the Child and Family Services Agency, 
and Children's National Medical Center.
    All of the cases that come to our center are referred by 
one of our MDT agencies. Approximately 75 percent of our cases 
involve child sexual abuse, 25 percent involve child physical 
abuse, or child witnesses. The majority of our cases have CFSA 
involvement. In general, the CAC has seen significant 
improvement in the way this city's child welfare system 
approaches child abuse cases.
    Three of the most important changes, all of which the CAC 
advocated for in previous testimony before this committee, were 
the restructuring of MPD so that all child abuse cases are 
investigated by the youth division of the Metropolitan Police 
Department, the end of bifurcation of social services between 
court social services and CFSA, and the termination of the 
receivership of CFSA. The result has been a much smoother and 
more coordinated response by the entire system.
    We have also seen improvements specific to CFSA, including 
the placement of more experienced social workers in the intake 
unit, improved joint investigations with MPD, and the 
development of an institutional investigations unit within the 
intake unit specifically tasked with conducting investigations 
of abuse and neglect that occur in out-of-home placements.
    While there have been tremendous gains, the system as a 
whole has not yet reached the level of excellence for which it 
clearly strives.
    In an effort to assist with this ongoing process, the CAC 
has recommendations for areas of continued improvement: 
Increase the availability of therapeutic services for child 
victims--there is a severe lack of qualified and affordable 
community-based clinicians in the D.C. area who are willing and 
able to treat child abuse victims, particularly child sexual 
abuse victims.
    Increase the availability of services for young 
perpetrators--the CAC has observed an increase in cases 
involving younger perpetrators, particularly in the 7 to 9-
year-old range. Practice and research indicates that children 
this young who are perpetrating on other children were most 
likely victimized themselves. To adequately address their 
perpetration issues, these sexually reactive children need to 
have their victimization issues addressed as well, but access 
to organizations in D.C. specifically trained to address this 
population is morbidly lacking.
    More extended coverage by the intake unit--in order to 
ensure optimal functioning, more intake workers need to be 
available during the evening, midnight and weekend shifts, to 
conduct joint investigations with MPD.
    Designation of similar funding for other involved 
agencies--in order to fulfill the consent order mandates, the 
city has increased funding for CFSA as well as for the abuse 
and neglect section of the Office of the Corporation Counsel. 
However, as the city has experienced budget problems, other 
agencies involved in the child welfare system have had cutbacks 
and/or staffing decreases. For instance, MPD's youth division 
has positions which remain unfilled following the transfers of 
detectives to other units, and the Office of the Corporation 
Counsel's juvenile section only has 10 attorneys to handle 
approximately 3,000 new cases per year.
    Eliminate the dual rolls of the abuse and neglect section--
as part of the consent order in the past year, the entire abuse 
and neglect section of the Office of the Corporation Counsel 
was co-located at CFSA and was given the additional 
responsibility of representing CFSA. This dual representation 
is a conflict of interest and presents some ethical issues for 
the Assistant Corporation Counsels. There are clearly instances 
wherein ACC cannot zealously represent both D.C. and CFSA.
    Development of a citywide Child Assessment Center--in prior 
testimony before this committee, the CAC made four 
recommendations to approve the city's response to child victims 
of abuse. As mentioned, three of those four recommendations 
have been enacted and the result has been an improvement in the 
system's response. However, the fourth and one of the most 
important recommendations has not yet come to fruition, the 
development of a state-of-the-art citywide Child Assessment 
Center that will enable co-location of the MDT agencies under 
one roof.
    Since 2000, the CAC and the MDT, in conjunction with the 
National Children's Alliance, have been working with 
representatives from the Mayor's office to build this new 
center at the Gales School site. When finished, this new center 
will house the entire youth division of MPD, the intake unit of 
CFSA, prosecutors and child advocates from the Office of the 
Corporation Counsel and the U.S. Attorney's Office, and a 
medical suite for Children's National Medical Center. On one of 
its seven floors, the center will also house the National 
Children's Alliance which will make the center unique in 
providing a collaboration not just between public and private 
agencies, but between local and national as well. In addition, 
the center will have two fully staffed playroom areas, an 
expansive therapy suite for child victims, seven sets of 
forensic interviewing rooms, and a model training center. This 
new center will enable the CAC and the MDT to better serve more 
child victims in a manner deserving of our Nation's Capital.
    In February 2002, the city pledged $7.3 million to assist 
in the renovation of the Gales School. Additional funding will 
be raised jointly by the CAC and the NCA. Partial city funding 
is appropriate because the Gales School will remain a D.C.-
owned building that will house D.C. agencies and will serve 
D.C. residents. However, 3 years later, roadblocks continue to 
emerge, delaying the project, a project for which time is of 
the essence.
    In 2002, the City Council passed legislation that codifies 
and expands the MDT approach in child abuse cases. In 
particular, the expansion of the MDT's role in physical abuse 
cases will directly and positively influence CFSA's provision 
of services to this population. Yet at this point, space and 
infrastructure limitations are impeding progress. Building this 
new center is an imperative step in enabling our city to move 
to the next step of service provision, particularly to the 
point of prevention of abuse.
    We encourage this committee to support CAC, our Mayor, our 
MDT agencies, and the NCA in the development of the center, and 
to assist us in facilitating a groundbreaking within the 
calendar year.
    In conclusion, I thank the committee once again for 
inviting our testimony. The CAC strongly supports our MDT 
agencies in their goal of providing the highest quality of 
service delivery to child victims of abuse in D.C. The city's 
child welfare system has made significant progress, and we are 
confident that with adequate support throughout the system, 
this goal will be achieved.
    Thank you.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Ms. Massengale follows:]

    [GRAPHIC] [TIFF OMITTED] T7806.065
    
    [GRAPHIC] [TIFF OMITTED] T7806.066
    
    [GRAPHIC] [TIFF OMITTED] T7806.067
    
    [GRAPHIC] [TIFF OMITTED] T7806.068
    
    [GRAPHIC] [TIFF OMITTED] T7806.069
    
    [GRAPHIC] [TIFF OMITTED] T7806.070
    
    [GRAPHIC] [TIFF OMITTED] T7806.071
    
    [GRAPHIC] [TIFF OMITTED] T7806.072
    
    [GRAPHIC] [TIFF OMITTED] T7806.073
    
    [GRAPHIC] [TIFF OMITTED] T7806.074
    
    [GRAPHIC] [TIFF OMITTED] T7806.075
    
    Chairman Tom Davis. Ms. Egerton.
    Ms. Egerton. Good morning, Congresswoman Norton, 
Congressman Davis, and members of the committee. My name is 
Marilyn Egerton, and I am a D.C. foster, kinship, and adoptive 
parent. In addition, I am the deputy director of the Foster and 
Adoptive Parent Advocacy Center [FAPAC]. We are very 
appreciative of your inclusion of foster parent voices into 
these hearings, and thank you for inviting us to participate 
and to share our experience with reform efforts of the D.C. 
child welfare system.
    In the 12 years that my husband and I have been foster 
parents, we have fostered over 25 children, had well over 50 
social workers, and I have been active as a member of the 
foster parent leadership through three changes in 
administration.
    I would like to start by pointing out some of the positive 
changes that have happened during this administration. These 
changes include: The successful closure of the Respite Center 
in the CFSA building. Second, at the insistence of foster 
parent leadership, a CFSA mandate requiring all staff to give 
the name and number of their supervisors on their outgoing 
voice mail message, enabling us to immediately go up the chain 
of command when we cannot reach our social workers. Third, the 
accessibility of upper-level management to both the foster 
parent leadership and the individual foster parents has been 
extremely commendable. Fourth, the development of a new 
placement information packet through a joint effort of foster 
parents and staff to address a serious issue of the lack of 
information given when children are placed in our homes. When 
CFSA workers actually begin using these packets, this will be 
another major improvement. Five, the introduction of disruption 
conferences which utilize clinical expertise to try to prevent 
placement disruptions. And six, Principal Deputy Director 
Leticia Lacomba's creation of joint working groups of foster 
parents and staff to revise and impact policy and practice 
guidelines.
    And despite the good intentions and real improvement we 
have seen, the tasks ahead for CFSA regarding its foster parent 
community are still great. There are many areas in which the 
support and services we receive are inadequate to meet the 
needs of our children, and we have included some suggestions 
for possible solutions to these issues in our written 
testimony. These areas include: First, the need for the 
infrastructure of CFSA to improve to accommodate the changes 
being made at the upper level. As a result of this process, 
problem resolution often goes around in circles. Hours more 
appropriately spent parenting are spent in frustrating efforts 
to seek problem resolution. Second, the reliance on social 
workers for routine tasks which could be accomplished by 
administrative support staff, like looking up Medicaid numbers 
or Social Security numbers. Quite frankly, I am perplexed that 
the Agency does not utilize administrative support for these 
clerical tasks within the social work unit, freeing the social 
workers to actually practice social work. Third, although the 
responsiveness and inclusiveness of the upper level has been 
real and significant, the attitudes of true partnership have 
not yet consistently reached the front lines. Workers often 
invalidate our experience, and, when it comes to the right to 
make decisions, exclude, ignore, and rebuff the foster parents' 
input.
    For children currently living in my home, I have been 
invited to participate in a total of one administrative review 
at which permanency plans and progress are to be discussed. We 
have been assured very recently that the technological and 
logistical barriers to notification have been resolved, and 
that consistent notification to administrative reviews will now 
be implemented. We hope to see evidence of this in the 
immediate future, and we trust that our notification of court 
reviews will be next.
    Fourth, the inability of social workers to consistently 
access resources both within CFSA and from the community. We 
recommend that public and private agency social workers receive 
training in this area. Fifth, the lack of sufficient numbers of 
infant day-care slots in D.C. Although this is not a 
responsibility of CFSA, it is a huge barrier nonetheless. 
Sixth, the lack of quality and timely mental health services. 
Our children are wounded. Many have suffered emotional and 
sometimes physical abuse, and all have suffered much loss. It 
is outrageous that their mental health needs have been 
addressed in such an inadequate manner. We do not know the 
answer to this problem. However, this is so paramount it cannot 
go unaddressed. Seventh, the lack of active Medicaid numbers 
and cards. This creates barriers to health care for our 
children. Eighth, the lack of an operating medical consent-to-
treat policy leaves us, as well as the hospitals, confused 
about who needs to sign for what treatments. And ninth, the 
lack of availability and access to respite care. All parents 
need a break from parenting sometimes. Biological parents have 
the option of sending their children to spend the weekend with 
a relative or family friend, or to visit a classmate for the 
weekend. As foster parents, we don't have that option unless 
those persons can meet many criteria, including obtaining the 
clearances that we have to obtain as foster parents. This puts 
us in a tough position. Not only are we asked to parent without 
significant breaks, we are parenting children who often have 
serious issues.
    I believe that many seeds have been planted under this 
administration which can lead to very positive change for 
foster families at CFSA. But many have not yet blossomed into 
actual day-to-day improvement.
    Responsiveness, accessibility, and inclusiveness of the 
upper level toward foster parents have been real and beyond 
rhetoric. Active and diligent work is being done by dedicated 
and committed CFSA staff and administrators, and they are 
community partners toward improvement and reform. However, we 
have much further to go before the infrastructure of CFSA 
supports and implements the philosophy of the upper level or 
the principles of best practice.
    In closing, we do believe that the Agency is on the right 
path and should continue in the direction in which they are 
traveling, which they have developed in collaboration with 
foster parents and their other communities partners. We also 
see the necessity for them to further develop the 
infrastructure that will facilitate the kind of changes 
essential to our children to receive the care they deserve.
    We acknowledge, as Rome was not built in a day, that CFSA 
cannot complete its systemic reform overnight. However, we do 
encourage them to move quickly to resolve those issues which 
are immediately fixable.
    I appreciate the opportunity to speak to foster parent 
concerns at this hearing. As an individual foster parent as 
well as the deputy director of FAPAC, I will continue to be 
available to assist in system reform in any way I can and to 
work with CFSA to develop its path of partnership with its 
foster parent community.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Ms. Egerton follows:]

    [GRAPHIC] [TIFF OMITTED] T7806.076
    
    [GRAPHIC] [TIFF OMITTED] T7806.077
    
    [GRAPHIC] [TIFF OMITTED] T7806.078
    
    [GRAPHIC] [TIFF OMITTED] T7806.079
    
    [GRAPHIC] [TIFF OMITTED] T7806.080
    
    [GRAPHIC] [TIFF OMITTED] T7806.081
    
    [GRAPHIC] [TIFF OMITTED] T7806.082
    
    [GRAPHIC] [TIFF OMITTED] T7806.083
    
    [GRAPHIC] [TIFF OMITTED] T7806.084
    
    [GRAPHIC] [TIFF OMITTED] T7806.085
    
    [GRAPHIC] [TIFF OMITTED] T7806.086
    
    Chairman Tom Davis. Ms. Sandalow.
    Ms. Sandalow. Good morning, Chairman Davis, Ms. Norton, and 
Mr. Van Hollen. My name is Judith Sandalow, and I am the 
executive director of the Children's Law Center in Washington, 
DC. The Children's Law Center helps at-risk children in the 
District of Columbia find safe permanent homes and the 
education, health care, and social services they need to 
flourish. We do that by providing comprehensive legal services 
to children, their families, foster kinship and adoptive 
parents.
    At the Children's Law Center, we serve as the voice for 
many children. We know their hopes, their fears, and their 
dreams. We see the excitement in the child's eyes when she is 
allowed to visit her sister who lives in another foster home. 
We also watch teenage boys resign themselves to never having a 
real family because they cannot control the anger brought on by 
years of abuse.
    The Children's Law Center also represents caregivers. 
Through our family permanency project, we help foster and 
kinship caregivers become guardians and adoptive parents. Many 
of our caregiver clients live in Maryland and Virginia as well 
the District of Columbia.
    Since the creation of the family court and the arrival of 
Dr. Golden to the CFSA, there has been an increased focus in 
the District on improving the lives of abused and neglected 
children. Nonetheless, there is a long way to go before we can 
say with confidence that children are traveling a safe and 
speedy course through our child welfare system.
    It is important to celebrate the achievements that Dr. 
Golden details in her testimony. The closing of the Respite 
Center, the dramatic reduction in numbers of young children in 
congregate care, and the steady decrease of social worker 
caseloads are meaningful accomplishments.
    The Children's Law Center applauds these successes. I'd 
like to use my time today to discuss two topics with the hope 
that Dr. Golden will give to these issues some of the energy, 
enthusiasm and action that she has shown in other areas. I'm 
convinced that these areas are essential to compliance with 
ASFA, and they are essential to the success of the 
implementation plan.
    When a child is injured in a car accident, the ambulance 
rushes the child to the hospital where a team of doctors and 
nurses drop everything to save a child's life. We all recognize 
that without this extraordinary effort, a child will die or be 
permanently disabled. The same urgency and the same resources 
should attend removal, abuse and neglect of children in their 
homes. Every day in the District of Columbia, children are 
permanently scarred because we do not treat these first days in 
foster care as an emergency. What is right for the children is 
right for the D.C. budget. Early and intensive intervention on 
behalf of children will speed reunification and adoption and 
will prevent the financial and human cost of increased 
homelessness, incarceration and welfare dependents that are 
found among adults who spend their childhoods in foster care.
    I urge CFSA, with the support of targeted funding by 
Congress, to create an emergency team to work with children and 
families when a child is removed from his or her home. You 
might ask what would such an emergency team do. First, an 
emergency team would convene a meeting of the child's family 
within 24 or 48 hours after removal to see what resources the 
extended family can provide. Often family members can step in 
to assist an overwhelmed parent, can arrange visits in their 
home for the child, or can even bring a child to live with them 
while the parent is in recovery.
    An emergency team would have access to a flexible fund to 
buy beds, clothes and, if necessary, food to ensure their 
relative can bring a child into their home immediately so the 
child does not have to stay in foster care. These tasks and the 
many more that are detailed in my written testimony must be 
done within the first few days after a child is removed from 
her home. Just as we staff an emergency room around the clock 
and not only during business hours, we must staff a child 
welfare agency team 24 hours a day.
    Early intervention won't help children if there are no 
services to help children heal, to rehabilitate parents and to 
support families. D.C. has an extremely limited number of 
mental health providers, as you've heard from other witnesses. 
There are very few drug treatment beds. Homemaker and intensive 
in-home services are almost nonexistent. As a foster and 
adoptive parent myself of extremely special needs teenage boys, 
I know from personal experience that it is violent and 
dangerous not to have those in-home services.
    I applaud CFSA's recent efforts to evaluate the quality of 
the service providers they use. This is the first time that I 
know that CFSA under any administration has done such an 
evaluation. Now their attention must be turned to increasing 
the availability of these services within CFSA and in other 
government agencies that are responsible for serving our 
children.
    The most important support that can be done for foster 
parents and the best tool for recruiting and retaining foster 
parents is the development of support services in the home for 
foster parents. The short-term cost of providing services may 
be great, but the long-term benefits and personal and financial 
savings is extraordinary.
    Indulge me with one story about a D.C. family that we've 
worked closely with. We worked with the father, who, after the 
death of his wife, was extremely depressed and having a hard 
time caring for his three children. He managed to hold onto a 
full-time job, get dinner on the table and was available to his 
children every evening after work, but he couldn't manage to 
get his children dressed in the morning and ready for school. 
Because of that, they missed school frequently, and there were 
concerns about educational neglect. Limited early morning 
homemaker services that were provided by CFSA help to keep this 
family together. It is just one example of how important it is 
to provide some support services to families to prevent entry 
of children into the child welfare system.
    A foster child is, by law, in the legal custody of the 
government. The government, therefore, has the legal right and 
the responsibility to parent that foster child. To me this 
means that we must treat every foster child as if he or she is 
our very own. Thank you for taking that responsibility 
seriously and for calling for and supporting measures that will 
give every foster child the promise of a safe, permanent and 
loving home.
    [The prepared statement of Ms. Sandalow follows:]

    [GRAPHIC] [TIFF OMITTED] T7806.087
    
    [GRAPHIC] [TIFF OMITTED] T7806.088
    
    [GRAPHIC] [TIFF OMITTED] T7806.089
    
    [GRAPHIC] [TIFF OMITTED] T7806.090
    
    Chairman Tom Davis. Well, thank you all. A lot of different 
perspectives on this. A lot of information.
    Let me just start by thanking all of you for what you're 
doing. Sometimes it is the most satisfying job in the world. 
Sometimes it has to be the most frustrating, and you can 
imagine our position as policymakers up here trying to end up 
doing the right thing. But it is not just resources; there are 
just a lot of factors involved with it. But you all are trying, 
and we're improving, and I think we shouldn't lose sight of 
that. So we'll have a long way to go, and we want to give you 
the resources to do that.
    Dr. Golden, let me start with you. What does a starting 
social worker make now in the city? Do you know salarywise?
    Dr. Golden. A master's level social worker, where they will 
come in in terms of salary depends on years of experience and 
GPA.
    The bottom is about $40,000. It can be well above that as 
people have years of experience.
    Chairman Tom Davis. So that is an MSW degree basically?
    Dr. Golden. Right. A master's degree. So we have very 
competitive salary at the master's level. At the bachelor's 
level we're not quite as competitive with other jurisdictions, 
but at the master's level we are. And we're also seeing--I 
think one of the other testifiers may have mentioned this--
because we now have a strong initial training unit with 4 
months that combines classroom and on the job, we're hearing 
that is the real reason that people are coming to join us as 
well.
    Chairman Tom Davis. I mean, people who go into social work, 
it has been my experience--and I ran a county government, as 
you know, before I came here. A lot of them aren't in it just 
for the money. Money is certainly a factor, and you want to be 
competitive and even more so, but it is not really what 
motivates people to go into this business. Our business as 
well, I might add.
    Dr. Golden. That's right. All of our work, I'm afraid.
    Chairman Tom Davis. What is the reason--as you look at it, 
what is the major reason that we get the turnover? Do people 
get burned out of this, get frustrated, do they move, do they 
go into some other profession, other jurisdictions? Is there 
one reason, or is there just a series of things?
    Dr. Golden. Well, we do exit interviews to learn about our 
own experience, and we've had the chance to look at the 
national context. We have a slightly better retention rate than 
the average of child welfare agencies around the country, but 
that is definitely not something to brag about. The average in 
this work, which is so difficult and stressful, is 20, 21 
percent. We hit about 17 percent last year. So----
    Chairman Tom Davis. That is annually.
    Dr. Golden. Annually, that's right. And----
    Chairman Tom Davis. Most major organizations with that kind 
of turnover, it's hard to get the--not just the continuity, but 
to run it effectively, because the high cost of bringing in new 
people and training them, too.
    Dr. Golden. That's right. And even when I used to be at 
HHS, that is true across the number of human services field 
like child care as well, but child welfare is especially 
stressful, and among--I think there are several factors that 
we've identified. One is just that the work is really hard.
    A second specifically in our agency, caseload size was 
always cited, so as we bring that down, we hope to have some 
impact.
    The committee will be interested to know, given your 
commitment to the family court, that the stress of interaction 
with the judiciary used to be on the list, and I actually 
haven't looked lately. I would guess that would be getting 
better; that as we work toward teams, that would be better.
    Some of the stresses mentioned by some of the other 
panelists in term of the frustration of trying to get access to 
resources and administrative headaches are issues for us and 
others; quality of supervision, which we're working on.
    And then I would add I really think that the period of 
reform itself is stressful, and some people love that, and some 
people, that's the perfect fit, and they love being part of 
this exciting change. And people tell me that's why they've 
come.
    For other people, of course, it is a time of a great deal 
of change, and so I think the other thing to say is that to the 
extent we're bringing in extraordinarily talented young people 
right after they've finished graduate school, we will have some 
number of people who seek another opportunity after 2 or 3 
years anyway, because they came to learn, and then they're 
moving on. But we think that as we really focus on those 
retention issues, we should at least be able to stay where we 
are, below the national average. We'll see whether it takes us 
a little while to improve.
    Chairman Tom Davis. If I state this--MSW, I start out, I'm 
there 15 years, what could I expect to make salary wise?
    Dr. Golden. I'm going to give you a rough number. I think 
we should get back to the specifics. I think we go up, 
particularly if people move up in terms of their licensing, 
because we have----
    Chairman Tom Davis. Assuming I do the normal----
    Dr. Golden. I think we can go up to the mid-60's over a 
period of time with licensing. I mean, this is a master's level 
qualification, and people, of course, have other options in the 
private sector if we're attracting good people with HMOs and 
other places. So we definitely--it's definitely----
    Chairman Tom Davis. I forget who testified. It was one of 
the earlier--on the number of children that move into their 
teens that we still haven't found a place for. I represent a 
suburban jurisdiction where I've just got families fighting to 
get kids. Whatever racial background, to do that, what's the 
major obstacles to finding people to adopt these kids? There is 
a lot of them--I guess the older they get, the tougher it is in 
some cases. What can we do to improve the adoption rate? Do you 
take suburban families? Do they have to be from the city?
    Dr. Golden. Absolutely. I really appreciate your interest 
in working with the Maryland and Virginia jurisdictions, 
because I think it's absolutely right that there are families 
not only in the District, because there are many families in 
the District, but also in the metropolitan area who really care 
about the District's children.
    I think there are a number of obstacles, and I think some 
of them came up in the comments of other panelists. I think the 
first is that over many, many years, the culture, both in the 
agency and in the District system as a whole, has often been to 
believe that it stopped being possible to place children as 
they came to a certain age, and over the years I've heard that 
from judges inside the agency, from private providers, and I 
think we have to turn that around. And I think we're starting 
to. I think ASFA is meant to, but I think that's one issue.
    A second issue which, again, several people alluded to is 
that where we haven't done the right things in the way of 
services along the way over 10 years of moving a child around 
placements, we may have done some damage to that--to that child 
and their ability to connect to a family. So we've got to 
change that.
    And then I think the third thing in terms of the big piece 
of responsibility that's ours is very focused attention to 
those children with very specific recruitment plans, adoption 
recruitment plans, so that, for example, if a child has medical 
needs, that we're looking for parents who are prepared to meet 
those needs, who we find--I mean, we----
    Chairman Tom Davis. But that is a major obstacle, a huge 
medical or psychological problem. Those are probably the most 
difficult kids to adopt, but I take it a lot of kids in the 
queue, there is no outwardly mental or physical problem. We 
just can't find--Ms. Sandalow, do you want to address that?
    Ms. Sandalow. The problem is that when a child comes into 
the system, you don't know what level of damage has occurred, 
so it is common for a child to be placed with a foster parent 
and for the foster parent to be told that there are no known 
problems, and, in fact, they may not know, and then for that 
child to develop very severe emotional, psychiatric or medical 
problems over the next couple of years.
    The No. 1 barrier that we see among our clients to adoption 
or to guardianship is the lack of support throughout the D.C. 
government agencies for good mental health and in-home 
behavioral health services.
    Chairman Tom Davis. Obviously if you can get a kid--just 
speaking literally--off the books and into a loving family that 
wants them, that's the best solution, isn't it?
    Dr. Golden. Absolutely. And one of the things we're proud 
of in terms of the steps along the way is that one of the 
criteria for us to get out of the probationary period was a 20 
percent increase in adoptions that we were able to accomplish 
last year, but we have to do much more.
    Chairman Tom Davis. Do you have any comments on that? 
You've been through this. This will be my last question before 
I yield to Ms. Norton.
    Ms. Egerton. I was just saying that also my experience has 
been almost exclusively with teen boys over the last 12 years, 
and people often say that you cannot get them adopted out. And 
one of the barriers to that is that they themselves don't want 
to be adopted, and we really have to acknowledge that these 
teenagers don't necessarily see adoption as a positive thing.
    And a part of what we need to do is, one, start talking 
with our teens and training our teens and giving them a better 
understanding of what the positives to adoption could be in 
their lives, and also working with the foster families and the 
biological families and training them to work together, because 
the teens are very afraid that what will happen with adoption 
is that they lose their connection, whatever that connection 
is, to the biological family, and that doesn't have to happen.
    I've got 16-age boys who I've raised to adulthood who I 
have very close relationships with all of their biological 
families, and we all get together now periodically through the 
year as one big massive family. It can happen, but foster 
families and biological families have to be trained at how to 
get over that hump.
    Chairman Tom Davis. I just will conclude with this before I 
yield to Ms. Norton. We try to put public policies in to change 
the world, but the fact is you do it a kid at a time, and I 
mean, what you're doing is so important. And all of you, I 
really do appreciate it, and it's tough, and we get on you when 
things don't go right. I know we all want to try to make it 
work, so just continue to work with us. Thank you very much.
    Ms. Norton.
    Ms. Norton. Thank you very much, Mr. Chairman, and I do 
want to congratulate you, Dr. Golden, that the court has 
approved the long-term plan. It must be gratifying to the 
agency, and, of course, on some of the testimony you've heard 
here, it must be gratifying as well in the progress of the 
agency. As I said earlier, that you've met most of the 
important requirements of the Adoption and Safe Families Act is 
particularly gratifying.
    While my good colleague--and I appreciate his being here 
for a few minutes--Mr. Van Hollen is here, I would like to ask 
a question relating to the distribution of our children within 
the region. First, let me ask how many of our children are in 
the District of Columbia, how many are in Maryland and how many 
are in Virginia, with rough percentages, please?
    Dr. Golden. About half of the children in care in the 
District of Columbia are in Maryland; a very small number right 
now in the District, 60 or 80 children--I mean, in Virginia, 
I'm sorry. The other half are in the District.
    Ms. Norton. So most of these children are in Maryland.
    Dr. Golden. About half of the children are in Maryland, 
about half in the District.
    Ms. Norton. Now, I recall that at our last hearing there 
was discussion about a border agreement and even perhaps some 
need of Congress to be helpful with respect to a border 
agreement. Would you indicate to us what your experience has 
been in executing and enforcing the border agreements with our 
regional neighbors?
    Dr. Golden. Yes. I think that's a very important issue and 
one in which I want to say thank you to the committee and urge 
your continued involvement. In the family court legislation, 
the Congress wrote a sense of the Congress piece of legislation 
urging the District, Maryland and Virginia to work together on 
a border agreement, and we, with Maryland, achieved an interim 
agreement, which we now--it's a formal signature while we work 
with a new administration. Maryland, we're getting involved and 
working with the new people, but we're all working by it, and 
we've had several phone calls from Virginia and are planning to 
engage them.
    The key elements of it, which I think are really important, 
the first is that right now--just--this is a metropolitan area 
where families and extended families and children's lives just 
cross State boundaries all the time. A father may be one place, 
a mother another, an aunt another, a family that goes to the 
child's church and wants to care for them may live in another 
jurisdiction. So we have to figure out ways not to have too 
much bureaucracy around the State lines.
    Key provisions in the agreement with Maryland included 
expedited placement of children, so that if a child lives in 
the District, but their relative is in Prince George's County, 
that we would have an expedited way to do that placement. We 
are putting in place the last implementation pieces for that. 
We are providing some resources to make that easier for Prince 
George's and trying to make that happen.
    The second piece is around non-kin families so that where 
there's a family setting in the metropolitan area that would be 
right for the child, that's better than being in congregate 
care, although we'd rather have a child in their family in 
their very own neighborhood.
    And then third piece is there's a whole lot of other issues 
around licensing and sharing information that we want to work 
on as well.
    So we think that the Congress's work in keeping us focused 
across the jurisdictions on the fact that child and family 
lives are lived in metropolitan ways is really important. At 
the same time, we're focusing intentionally on recruiting 
foster parents in the District, because where there aren't 
those kin or other ties, we'd much rather have children in 
their neighborhoods and not have their lives disrupted.
    Ms. Norton. So if there are resources involved, the 
District has to provide the resources, the families, going to 
Maryland or Virginia?
    Dr. Golden. That's right; until the point of adoption, 
that's right.
    Ms. Norton. So you think that this agreement is functioning 
well now?
    Dr. Golden. I think it's not finished. I think we've made--
it's like everything we're talking about today. We've made 
important progress to have an agreement and get some pieces 
down on paper, but we have a lot more to do and think it would 
be useful to have the continued focus of the Congress on those 
remaining pieces.
    Ms. Norton. So there's no shared funding here? It's 
funding--if the child is--has been in your agency here, there's 
not a funding problem with Maryland? I want to make sure, 
because as I recall, there were some of those issues before, 
and if they have been ironed out, I would be very pleased.
    Dr. Golden. No. I think there are some issues, and I think 
we made a start on them, but I think there may well be a role 
for Congress in the future. One of the issues, for example, is 
that the surrounding jurisdictions pay lower rates for foster 
parents than the District does. Our Federal court decree 
required us to raise rates for all the good reasons you've 
heard, that it's enormously expensive to raise a child in the 
metropolitan area. Some of the surrounding jurisdictions are 
worried that if families are available for District children 
and pay at that rate, that will reduce their ability to serve 
their children. And so one of the things we've all talked about 
besides the recruiting that we're doing is whether over time 
there would be an opportunity for them to supplement within the 
metropolitan area to meet the high cost of living here. So 
that's the kind of issue that hasn't been solved yet.
    Ms. Norton. I'd be willing to yield to Mr. Van Hollen 
before he left if he has any issue or any question.
    Mr. Van Hollen. Thank you very much, and I want to thank 
Congresswoman Eleanor Holmes Norton for all her leadership 
here. As a new Member, I'm here largely to learn, and I thank 
all of you for your testimony. I'm going to read it over as 
well. I thank the chairman of this committee for his leadership 
on this issue as well.
    As a State legislator, I did a lot of work in the area of 
child welfare, and I look forward to contributing in any way I 
can, working with the chairman and Congresswoman Eleanor Holmes 
Norton on those issues and with all of you to improve and make 
the D.C. system better and to help you with Maryland to the 
extent that there are issues. I welcome any of your suggestions 
for help and support I can provide. I'm not familiar with all 
the issues in the agreement, but if you have any problems, I'm 
here to help, and I look forward to working with you on those 
issues.
    Ms. Norton. Thank you.
    Mr. Van Hollen. Please bring them to my attention, because 
that's an issue that is important to all of us, important to 
the region. It's also important obviously to do the right thing 
by the children.
    Dr. Golden. Thank you, sir.
    Ms. Norton. Thank you very much, Mr. Van Hollen.
    Mr. Van Hollen. Thank you. I'm sorry I'm going to have to 
leave now, but I thank you for that.
    Ms. Norton. At least initially it might be troubling that 
the District pays more than the two other jurisdictions, 
although I believe we need to know more of the implications of 
that. It may be that to take a child from the District of 
Columbia when they read in the paper so much about the 
difficulties of urban life for much of these inner-city 
children might be considered by some to be just the kind of 
incentive you might need. I just don't know how to judge that. 
I would not want some inequality of that kind to develop among 
the jurisdictions so as to present barriers among us, but I'm 
not sure of the implications.
    Yes, Ms. Schneiders.
    Ms. Schneiders. This is an area that is of great concern to 
a lot of people in the agencies, because there is no 
standardization of rates in this area for what a foster family 
gets. If they go to agency A, they may get paid X amount of 
dollars per month. If they go to agency B, they get something 
higher or lower. Then when the child is adopted, the adoption 
subsidy is lower than the foster care subsidy, so it 
discourages adoption. And it would be helpful, I think, if 
there could be some standardization of rates for different 
types of children, as New York does. You know, there is a State 
rate, and everyone pays the State rate. And----
    Ms. Norton. They pay the same rate for foster and 
adoption--New York pays the same rate to an adoptive parent as 
they do to a foster parent?
    Ms. Schneiders. No. There's a State--I'm talking about 
foster care. The State rate--but here in the District, for 
example, a foster parent will get a certain amount of money as 
a foster parent and then learn that when they negotiate the 
adoption subsidy, it can be lower than the foster care subsidy.
    Ms. Norton. And you don't think that's right? You think 
that the--that was my question. Do you think that the adoptive 
rate should be the same as the foster rate? I mean, you're 
taking full responsibility for the child as an adoptive parent, 
albeit with some subsidy. A foster parent, of course, is not 
taking that kind of responsibility.
    Ms. Schneiders. I think it depends on the type of child. 
All I'm saying is that I think there needs to be some 
equalization or standardization as to what agencies--whether 
it's the D.C. home versus the private agency home versus the 
second private agency home, that there should be some 
standardization of what the cost of caring for a child with one 
set of disabilities is versus a child without those 
disabilities or a child with more severe disabilities.
    Ms. Norton. Let me ask Dr. Golden. Is there some reason for 
lack of standardization? Is there some need to tailor rates 
based on the needs of the child, or what is the reason?
    Dr. Golden. Where we are right now, which I think is what 
Ms. Schneiders is referring to, is that we have a basic rate 
that we pay for foster parents that's set in our court decree, 
and that's, I think, derived from an index of how much it costs 
to care for a child in the urban Southeast. But we support 
foster parents for what we call therapeutic care through 
contracts to the private agencies that work with foster 
parents, and it's absolutely right that there's inconsistency 
there.
    Where we would like to go to is toward, perhaps, which I 
think, Representative Norton, may have been what you were 
thinking about when you said the needs of the child. We would 
like to get toward more clarity about the level of need of the 
child and having that better matched with the payment. We're 
right in the midst of the next set of working with our 
contracted providers around that, so I think it's right that 
there should be some difference related to the needs of the 
child. I also think that it should be more clear than it is 
right now.
    Ms. Norton. More standard than it is now.
    Dr. Golden. Exactly.
    Ms. Norton. And you're working toward that end.
    Dr. Golden. We are. It won't happen immediately, but we're 
working toward it.
    Ms. Norton. Let me go on. It is troubling that the GAO 
found that data was not available for 70 percent of the current 
foster care cases. That's, like, most of the children that you 
don't have the most important data for. What is wrong with this 
FACES system, or is there some other reason for this 
unavailability of important data? Whoever can answer it. I take 
it it's you, Dr. Golden.
    Dr. Golden. Great. No. I would love to. I didn't want to 
interrupt the GAO.
    As I understand the GAO's finding, it's particularly about 
an issue that many States have, that when you move to a good 
system like a FACES system, a good case management system, you 
have to struggle with what to do about the old data that was 
either manual or was in old systems, and after discussing with 
the GAO their conclusion that we really should have done more 
than what we did, we've called a lot of other States to find 
out what people have done about that transition, because the 
data that aren't there aren't basic data about where the child 
is and so forth. Their information about--in that investigation 
process, for example, that occurred 3 years ago, perhaps with 
MPD or in the fragmented system, how quickly did that 
investigation happen? And that's the kind of thing that if it 
was tracked before would have been in a file or some previous 
system. So we talked with other States to find out if they had 
a recommendation for us.
    The sense we got from the other States was that really they 
would recommend doing just what we did, which was pick out 
those data that are high quality and try to do an automated 
transfer, which we did, not do a special project to go in and 
try to examine the files for more. And the reasons they don't 
recommend that is that the reason so many States are switching 
to the new, better systems is that the old data isn't very 
good, and you add another administrative burden to social 
workers if you try to have them come through it. But I'm very 
open to exploring with other jurisdictions.
    The key thing, I think, in terms of our FACES system is 
that it's a strong automated system, and what we've got to do 
is keep improving the way it supports our process so that 
social workers enter visitation and enter case plan data, and 
we've made----
    Ms. Norton. Let me go on. It's an issue that obviously when 
you have that large number out there from the GAO needs to be 
worked on. I do accept what you say. I mean, you can get 
yourself into, you know, data heaven here. You've got to decide 
how much of your time, energy and resources are going to be put 
on bringing old data over, and that's a very knotty question. 
It may be that what is needed is to earmark certain kinds of 
basic data that simply must be in a file of a child, period, 
knowing full well that you can't do an encyclopedic search 
without putting too much of your resources in data and perhaps 
less in children.
    Ms. Egerton, I must tell you you've raised my interest when 
you said that some of these teenage boys--I have a commission 
on black men and boys. I am so concerned about black family 
life in our community, our community where most of the children 
are born to never-married women and never will be married 
women, our community which has lost the family centeredness 
that held us from slavery through a century of discrimination. 
I regard this as the most serious problem facing black America 
today, and there has been a lot of focus on the women and 
children, because the women are custodians of the children, you 
must look to them, and very little focus on the men.
    This commission consists of 12 men in the District of 
Columbia. It's not your expert commission. They have some 
expert advisers; 12 men in the District of Columbia who have 
the confidence of men and boys in the District of Columbia, 
because they've worked with them. And I'm very interested. I 
mean, I'm this great big feminist. I'm real interested in black 
men and boys, because I'm interested in the revival of the 
black family. All this stuff that we have here today, you know, 
is about accepting that we would get there in the first place, 
and, you know, how can we accept that we're going to get there 
in the first place, where huge numbers of our children are in 
foster care? The rest of them are hanging on by their 
fingernails with some single woman. Very few of our young 
people are getting married because of the disparity between the 
marriageable young men and marriageable young women, because so 
many of the boys when they are young get off into the 
underground economy or the criminal economy or the drug economy 
or the gun economy. This is the problem of the African American 
community.
    Now, you really get my attention, Ms. Egerton, when you say 
that a lot of these boys don't want to be adopted, and I wish 
you would explain that to us.
    Ms. Egerton. They don't. Our children need the connection 
to their biological families, and as I said before, whatever 
that connection is, and many of them, the teenagers, are afraid 
that the adoption cuts that tie.
    Ms. Norton. They still feel some tie with the biological 
families?
    Ms. Egerton. They feel some tie, even when they have no 
contact. My oldest sons made it very clear when the subject was 
mentioned to them of adoption, they made it very clear to their 
social workers, to my husband and me and to anyone else who 
questioned them, we don't want to go anywhere. We want to be 
here. There is where we feel safe. This is home. This is where 
we want to be. We don't want to be adopted. We don't want to 
leave you, but we don't want to be adopted, because if we get 
adopted, we have no connection to our families. And very often 
our kids have an unspoken fantasy that their parents will get 
it together even after years and years and years and years of 
the inability to parent them. They have that unspoken fantasy, 
and many of them are afraid that if that adoption goes through, 
should their fantasy come true and their parent is able to 
parent them, then they still don't have the--you know, it's 
impossible at that point.
    Our children are not trained. We talk a whole lot about 
training our professionals, and we broach a little bit on the 
subject of training up foster parents, but we don't talk about 
training our children, and they need--particularly our 
teenagers, particularly children who have been raised in the 
system, they need to begin to understand that adoption does not 
have to mean it's the end of any relationship with your 
biological family. And they need to understand the positives to 
adoption and not be left out to try to come up with some answer 
on their own as to what adoption means.
    Ms. Norton. Well, perhaps----
    Ms. Sandalow. We need to listen to them and be trained by 
them as well, I think, and I think Marilyn--we would agree on 
this, which is the measure of well-being of a child is often 
not adoption, but compliance with ASFA through long-term foster 
care. And D.C. has a new guardianship law which provides the 
flexibility, if it could be extended beyond kin, to foster 
parents to allow children to acknowledge through law the truth 
that they have two families, and that is important.
    Ms. Meltzer. Adoption practice in the whole country has 
changed dramatically since ASFA, and many States allowed by 
statute something called ``open adoption.'' An open adoption 
recognizes that for many older children, you can have an 
adoption and have a permanent connection to a new family, but 
still maintain ties to your birth family. D.C. statute does not 
allow open adoption. It needs to be changed to allow that.
    The other piece that I----
    Ms. Norton. Why doesn't D.C. allow open adoption, Dr. 
Golden?
    Dr. Golden. I don't know the answer to that. I've asked the 
judges about it, and I think it is an area----
    Ms. Norton. It is the----
    Dr. Golden. It doesn't--it makes it impossible to require 
it, as I understand it. That is, people can choose to do it, 
but it makes it impossible for that to be a condition, and so 
that is an area that I think we should investigate for possible 
statutory change.
    Ms. Norton. I wish you would investigate that and let this 
committee know if there is any interest in the council in open 
adoption, you know, where, in fact, the relationship with the 
parent is a part of the process.
    Ms. Meltzer. Sometimes it's not even the parent. It's the 
relatives and the siblings that they've been separated from 
through foster care.
    But the other point is that in the past, professionals have 
been too quick to assume that these 14-year-olds and 15-year-
olds that they ask--if they say, ``do you want to be adopted,'' 
and they say no, that is the final answer. All of us who have 
teenagers know that their first reaction to any change is to 
say no. So I think the whole sense of how we work with kids 
around this issue has to change.
    Ms. Norton. I mean, I just wonder--to ask a teenage black 
kid if he wants to be adopted is not to raise his expectation. 
I wonder if the question should even be put out there. I mean, 
how many teenage black kids--black boys have any possibility of 
being adopted?
    Ms. Egerton. Well, I can tell you, I would adopt, like, all 
of them. I love them. I love teen boys, and I'm not the only 
one out there. And in the case of my----
    Ms. Norton. The statistics are awful for these boys, and in 
a real sense, the best thing--they may have the best realistic 
sense of what is going to happen to them, and they have come to 
grips with it. They know that a teenage black kid is--just by 
presenting himself--a menace as far as some people in society 
are concerned. So they have decided, hey, wait a minute, I'm 
going to deal with my head, and my head tells me don't even 
think about adoption. I got a gig here that I'm comfortable 
with, and I'm going to stay with it.
    Ms. Egerton. But my boys knew that they were--the question 
was being posed, because the question was first posed to my 
husband and me, and the answer was emphatically yes, 
absolutely. I don't want to see them go anywhere else, 
absolutely. So they weren't asked the question without there 
being someplace for them.
    Ms. Norton. Yes.
    Ms. Egerton. But I would also say, too, that our black 
community would be more willing and capable to step in and take 
care of these black boys if the support systems were in place 
for us to do so. As foster parents, we have to be supported. 
The services that our children need need to be there, easily 
accessible, and when that is, in fact, the case, there will be 
more meetings, because I would not hesitate to go out and in my 
circle of friends say, y'all need to do this, you know. But 
those supports need to be in place. I'm not going to ask my 
friends and my constituents to do this when the supports are 
not in place.
    Ms. Norton. Well, let me followup with the notion of 
supports, because Ms. Schneiders in her testimony talked about 
therapeutic foster homes and the notion that the traditional 
foster home notion was obsolete. And I relate that to Ms. 
Egerton's testimony in which she testified on--I'm quoting from 
page 3. She testified about an extremely serious problem. 
Children have historically been placed without being told 
imperative medical, psychological and behavioral information.
    My question is first for Dr. Golden. Is it realistic--I 
mean, this notion about recruiting is therapeutic for foster 
homes, knowing full well that many of these children come with 
conditions, huge numbers of them, maybe conditions that you 
won't even know about no matter what you do--my question is 
how--how realistic is it, and if it is realistic to regard a 
foster home as therapeutic for all of our children, then why 
aren't we doing that given what the data shows us is, in fact, 
the state of these children, the problems that they come with? 
And Ms. Egerton even testifies that--although she says there is 
now a placement information package, that even what was known 
was not always available. I mean, is there some sense that you 
don't want to tell people all that they need to know, because 
maybe there would be reluctant of people to, in fact, be foster 
parents? Is there the sense that in order to have a therapeutic 
foster home, we have to provide the kind of services that we 
don't have the resources and the funds to do?
    Dr. Golden. I think you're asking questions both about what 
we tell and how we support homes, because both of those things 
are incredibly important.
    Ms. Norton. Right. I was interested in this notion when I 
first read Ms. Schneiders' testimony about therapeutic foster 
homes. It strikes me that she really was talking about probably 
the majority of our children, that they--to say, you know, 
his--we need some foster care parents, you know, of the kind we 
always--we used to try to get when I was a youngster does not 
speak to the children that are coming into the system now. And 
if not, then what would a therapeutic foster home atmosphere or 
approach by your agency entail?
    Dr. Golden. Right now, I guess the way I see the vision, 
the way I see where we're going is that we want homes that can 
meet the needs of all our children and that are well supported 
and that are grounded in the community, because for a lot of 
our children, it may not be--I mean, there are going to be some 
kinds of clinical services, but some of it is being able to 
keep that child connected to the early childhood provider who 
was wonderful for them. That is some of what you need for that 
child to stay stable isn't about putting in new--sort of high-
intensity clinical services. It is about making sure you're not 
disrupting their lives more in the first place. So that is the 
key piece of it is having the homes be in that community and 
connected.
    In terms of the clinical services, where I would say we 
are, right now we make too stark a distinction. We have several 
hundred therapeutic homes that we have much more intensive 
services, and we don't do enough wrapping services around other 
homes.
    I don't think that we need--I think there's a risk of 
stigmatizing children if we describe them all as needing an 
enormous amount of services. Sometimes we found, for example, 
what we've done internally is we've built up our clinical staff 
so that we're able to guide these decisions better. We now have 
two RNs and a pediatrician and some mental health clinical 
capacity, and so, for example, with the RNs when there's a 
medically fragile child, we're able to try to find and work 
with a foster parent who's comfortable dealing with that, but 
that may not mean they need a huge amount of other things.
    So I think the answer that I would give is that the 
direction we ought to be going in is both informal and 
community support so that foster parents can rely on 
neighborhood help of all kinds and the kinds of mental health 
and health care where a child needs that, and I think early 
information is critical. I think that one of the things that I 
think Ms. Egerton would also say is true is that sometimes it 
may be that people don't choose to share it. It's also that the 
chaotic atmosphere during which a removal might happen may mean 
that you don't have all the information at the beginning, but 
you should get it absolutely as quickly as you can and share 
it.
    Ms. Norton. Well, I don't want to go much more deeply into 
this. I would agree with Ms. Schneiders. I would--even if the 
child does not look like the child has a serious problem, the 
notion of presenting these children who are in foster care, 
which is the last place any child wants to be, and waiting 
until the--some service is needed would not, it seems to me, be 
the best approach. The notion of assuming that these are 
children that need services that a child in a traditional home 
would not need does seem--might indeed save the District of 
Columbia of the kinds of resources that ultimately you have to 
provide when a child goes into this strange new environment, 
never acted out, but all of a sudden finds himself in a place 
where he didn't want to be. So the notion that, well, you know, 
he seems fine to me may really not be--considering the 
environment that these children come from, be the way to 
approach these cases.
    Dr. Golden. And I think individualized and flexible 
services I guess would be the way I think about it, that we 
want what that child----
    Ms. Norton. Ms. Schneiders, would you want to say 
something, because I want to go on?
    Ms. Schneiders. For some of us who have been in this 
business for 30 years or more, the traditional foster home came 
into being when the mother died in childbirth and the father 
was killed in the war, and you had a----
    Ms. Norton. But they are already not operating in that 
atmosphere----
    Ms. Schneiders. But the child that we bring in today, the 
fact that we had to take him or her away from that parent means 
something happened in that home that is traumatic. It's an 
automatic assumption that something happened that was traumatic 
to that child that says we have to get that child out of that 
environment. Taking them out then is the second traumatic 
experience, and then putting them into a new and unrelated home 
is a third traumatic event. You need a therapeutic environment 
for every child that we now have in care. If we didn't have to 
do that, we wouldn't bring them into care.
    Ms. Norton. I don't know the kind of resources that it 
would take. I agree with you, and I know the strains the 
District is under, and I realize that some parsing out of this 
must be done, but I want to endorse your notion that ultimately 
a presumption in favor of--now, maybe you can waive that 
presumption when you find that the child is fine. The child may 
be so relieved to be someplace that's safe.
    I do want to pursue the chairman's question, because, I 
mean, this notion of social workers has come up time and time 
again when we see that zero percent of the children in foster 
care had at least a weekly visit with a social worker and zero 
percent had at least a monthly visit. I don't believe that a 
weekly visit should be necessary. Just let me say that for the 
record. I don't believe that anybody is ever going to have the 
resources or the number of social workers to do that, so I 
don't know where that goal came from, but it does seem to me 
perhaps a monthly visit would be necessary, and I want to know 
the extent to which we're chasing social workers here, chasing 
college loans.
    I was frustrated by the notion of master's degrees before. 
Are we still requiring master's degrees? Can you have the 
social worker degree without your master's degree and get a job 
in the District of Columbia?
    Dr. Golden. Yes. The District requires licensed bachelor's 
level or master's level social workers, which is still more 
highly qualified than other States. Other States often allow 
other bachelor's degrees besides social worker----
    Ms. Norton. But the chairman asks how many vacancies do we 
have now among--for social workers.
    Dr. Golden. Well, we just got new positions for this fiscal 
year.
    Ms. Norton. New what?
    Dr. Golden. New positions to fill for this fiscal year. The 
Congress approved the request we had made. So we are intending 
to fill about 50 or 60 additional social worker vacancies here.
    Ms. Norton. Leave aside the new. I'm asking a question 
about--I'm obviously not asking about new. I'm asking where you 
have the full data. How many social workers as of, I guess, 
2003 were there, and how many vacancies were there?
    Dr. Golden. Our current number is about 270 social workers 
on board, and we're expecting to get up to about 310 to 320.
    Ms. Norton. How many vacancies were there when there were 
200 on board?
    Dr. Golden. 270.
    Ms. Norton. 270. How many vacancies were there?
    Dr. Golden. We had--I'm trying to--the reason--the only 
reason I'm having difficulty answering is that I think of all 
vacancies together rather than which were old and new, but we 
probably had about 20 to fill before we got the new positions.
    Ms. Norton. Mr. Chairman, let me ask you this. You'll 
recall the nurses bill that we got through the House. We 
finally stopped talking about nurses and how nobody could find 
nurses, and with great bipartisan applause there was a bill 
that was passed here. I believe it was even last year.
    What is happening to social workers is exactly the same 
thing that is happening to nurses. It's one of the most 
difficult jobs you could possibly take on. You go to get a BA, 
and you go to get a master's. You've said to the chairman what 
the pay is, and I'm wondering if you'd work with me on a 
similar bill for social workers, because I don't see any answer 
to this social workers problem. I don't think we're going to 
get them out of the clear blue sky. I do not see an incentive 
for the usual group of women who, in fact, we depended upon. 
Those women are now going into every occupation in the world. 
They are fleeing social work just as they fled nursing. So we 
are chasing our tails here every time we mention social work. I 
just want to ask him if he would work with me on a bill.
    Chairman Tom Davis. I would. I think one of the biggest 
problems is retention. It's keeping people--and I don't know if 
you do a sabbatical or what you do to keep people in it, but 
any time you have to bring somebody new and train them, there's 
a huge cost to that, and there's a risk. So when you have good 
people to keep them, I mean, as in the private sector, we 
incentivize them in a number of ways.
    Dr. Golden. Well, and I think were you to work on a bill, I 
would see really two areas sort of by the analogy to nurses and 
to others. For those who come to us with master's, I think 
people come with pretty substantial loan burdens, and for 
people who were choosing to come in to deal with the most 
troubled families in areas of high need and work with the 
public agency, they're not going to make the salaries to pay 
that loan.
    Chairman Tom Davis. That is my----
    Ms. Norton. Loan forgiveness.
    Dr. Golden. Right. And for those who come with a 
bachelor's, I think one of the keys to retention is their 
ability to carry on and get their education and possibly 
scholarship and other kinds of strategies.
    Ms. Norton. Mr. Chairman, I'm going to only ask one more 
question, perhaps submit others for the record. I was concerned 
about the figure. I think it is from the GAO's report that says 
25 percent of the children have three or more foster care 
placements. Ms. Schneiders and I have been having this 
discussion about the trauma of having one placement. I wonder 
if any work has been done to see if there are any reasons that 
tend to be systematic for why children are placed more than one 
time?
    Dr. Golden. Yes. There are some major problems, and we're 
beginning to make headway. We have rigorous targets in the 
implementation plan. One of the reasons--and I think Ms. 
Egerton addressed her pleasure at the fact that we now have 
disruption conferences. We used to do nothing when a foster 
parent--you know, in the middle of the night, you know the 
child--that they just couldn't cope or got to the end of their 
rope. We're trying now to bring together the people who know 
that child and see if more supports in the home could help. 
We're not----
    Ms. Norton. First, what is the reason? What is the major 
reason that a child would have--a quarter of your children 
would have three or more foster care placements?
    Ms. Meltzer. Can I respond to that? First, is that the 
initial placement was the wrong placement so that there wasn't 
enough of a matching between the needs of the child in the 
initial placement. Second, is the lack of supports to the 
foster families. Most States find that if they increase the 
support to the foster parent families early on, they can 
stabilize the placements.
    And the third reason sometimes is just sort of systematic 
reasons that relate to what the agency has out there. So the 
agency may have some placements that they consider emergency 
placements. They don't have the right placement at the first 
time. They put the child in a place, and then they just by 
definition have to move them. That's why----
    Ms. Norton. Some of this I know you simply can't help, 
particularly given the dearth of such parents and the quick 
decisions that sometimes must be made.
    Ms. Meltzer. But that's why I think--you've heard testimony 
today that it's real important for that first placement to then 
very quickly on bring together a whole team to work with that 
foster family with the worker, involve the biological family 
and relatives if you can find them in putting together the 
package of supports that are needed within that first week, and 
we have experience in places around the country that when you 
do that, you can stabilize placements.
    Ms. Norton. Mr. Chairman, actually, I have one very last 
question. This notion about a team that I think Ms. Sandalow 
mentioned, this committee and the entire city were particularly 
concerned about this issue when this infant was murdered. 
According to the GAO, only 26 percent of child victims had a 
face-to-face meeting within the first 24 hours, and I'm 
wondering what is the reason if there is a child victim that as 
many as a quarter of these victims did not have that meeting 
when they were most impressionable about what had happened to 
them and when you could get perhaps the best information about 
what to do for them?
    Dr. Golden. Getting out really early in an investigation is 
enormously important for just the reason you give. We now, I 
believe, are at something like 40 to 50 percent in our most 
recent month, and we have to keep improving.
    The GAO highlighted that the standard that we get out in 
every investigation--that's for any hotline call about abuse or 
neglect within 24 hours is more rigorous than most States. Most 
States give 48 hours to several days, because they triage and 
try to get out on the most urgent ones. But our standard, for 
the reason you give, is that we've got to get out there early. 
I think past reasons for not doing that included staffing, but 
we've put a lot of our staffing focus on investigations to try 
to fix that.
    You also heard, I think, in the testimony from the Child 
Advocacy Center that we focus on putting our most experienced 
workers in intake, because the other thing you have to do is 
you have to find the child in the family, and you have to make 
sure that you're doing that well. So there's a lot left to do 
on that.
    Ms. Norton. But these are a quarter of the children--these, 
I take it, are emergency cases.
    Dr. Golden. No. These are all of the investigations that 
come in.
    Ms. Norton. I see. So this 26 percent figure relates to all 
child victims, not just emergency----
    Dr. Golden. Well, it's, as I understand it, to all--calls 
to the hotline--you don't know yet if there's a victim or not. 
You're trying to get out there as quickly as you can to find 
out.
    Ms. Ashby. I just wanted to clarify, that's 26 percent of 
the cases for which there was data in FACES.
    Ms. Norton. Yes. So we don't know if the figure is larger 
or not.
    Ms. Ashby. We kept running into the issue of data, because, 
for the most part, that's all we had to look at. We did go to 
case files. We found that data was missing in case files as 
well. So of the cases that we could get information on, it was 
26 percent.
    Chairman Tom Davis. Thank you.
    Ms. Norton. Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much, Ms. Norton.
    Let me just ask a couple of questions, and we can move on.
    Ms. Massengale, in your testimony you gave a very detailed 
description of the plans for the development of the citywide 
Child Assessment Center. I think clearly the new center would 
provide a means to increase services to children. What's the 
status of this now? What action do we need to take?
    Ms. Massengale. Well, at this point we have detailed 
architectural plans developed which have been presented to 
several agencies in D.C., including the Historic Preservation 
Review Board. Because of historic designations on the building, 
they denied conceptual approval, and so now this has to become 
a Mayor's agent case. So that's another layer of bureaucracy 
that we need to go through for the center.
    The funding has been put into the budget, but city council 
has asked to receive some additional information on the center 
that we're now trying to produce to city council.
    The other issues right now, there are--this is being used 
as a temporary homeless shelter, and the Deputy Mayor Carolyn 
Graham is working on plans to ensure that the homeless have a 
place to go when construction starts on this center.
    Chairman Tom Davis. Could you keep us informed on that and 
Ms. Proctor on my staff here in terms of where that is?
    Ms. Massengale. Absolutely, because----
    Ms. Norton. Mr. Chairman, weren't you supposed--wasn't this 
center supposed to be part of the national organization that 
deals with such children supposed to go into the old historic 
firehouse at one point?
    Ms. Massengale. Right. There's a long history with this 
center. We started trying to find a place in 1995, and we were 
supposed to be going into the firehouse on New Jersey Avenue. 
We even had a lease that had been signed on that property, and 
it was revoked.
    Ms. Norton. And I just want to say it should not have been 
revoked. This was a firehouse which the then fire commissioner 
convinced the Mayor, who did not have the background to know, 
that the Congress had shut that firehouse after the city had 
tried for years to get it shut, because there was no case to be 
made that we needed that firehouse with all of the 
superstructure that is involved in keeping a firehouse and that 
the community could be served. This firehouse is in--when you 
were literally trying to get that firehouse, was snatched back, 
an underutilized firehouse. I'm very sorry, because I think you 
would have been well on the way, because you had gotten so far 
to getting the center with the national people along with our 
local people in the same place.
    Ms. Massengale. Right. And one of the criticisms that is 
regularly given to D.C. is that you have all these national 
organizations that are located here, and they do nothing for 
the local people of the city. And so having a place where we 
can put in all of our local agencies, the police, the social 
workers who are so crucial in this process under one roof and 
also have the link to a national agency where the center would 
be the example within not just this country, but the world of 
how we should treat child victims is so important. And 
obviously we're very frustrated that 8 years later there's no 
progress.
    Our current center, we're turning closets into office 
spaces in order to provide more therapy, to provide more 
services. There's no way to go, and we've shown with recent 
progress that collocation is important. So we're just hopeful 
that we can get the progress soon.
    Chairman Tom Davis. That's why I asked the question, and 
Ms. Norton is obviously on top of this as well. So keep us in 
the loop.
    Ms. Massengale. I will. Thank you.
    Chairman Tom Davis. Let me just ask Dr. Golden, it's my 
understanding that CFSA has a policy to reduce the number of 
children that are placed in group facilities like St. Ann's in 
Hyattsville. Given the fact that so many of these babies are 
medically fragile, where do the sick babies go, and what kind 
of services do they receive, and how many placements are we 
disrupting here, and how long are these babies staying in and 
out of home placements?
    Dr. Golden. Well, as you say, we want children to be in 
families, particularly young children, and that expectation of 
ours is very formalized in the implementation plan. So we have 
targets to even reduce dramatically how many young children we 
have in congregate care.
    In general what we found, particularly with babies, with 
young children, is that there are families who are eager to 
care for children. We also have been finding that when we do 
the early focus that several people here talked about, we 
identify kin who are prepared to care for babies and young 
children; so we also often find kin families who will care for 
children.
    You specifically mentioned St. Ann's, which we worked with 
closely, because as we transitioned toward being able to ensure 
that each young child goes to a family first, they have a very 
good setting for being able to do some early diagnostic support 
where we need that. But we are aiming to transition to being 
able to identify the right family right away. We have made a 
lot of progress on that.
    Chairman Tom Davis. Thank you.
    Ms. Meltzer, let me just ask you, from your perspective, 
what are CFSA's most critical priorities in order to sustain 
and improve the outcomes for the foster care children and their 
families?
    Ms. Meltzer. The first is one we have been talking about, 
having an adequate, stable, and trained work force. I think 
achieving a lot of the other things that we want to achieve 
can't be done until they have that.
    Second, I think, is recruiting and supporting foster 
families and adoptive families, both in the District and, where 
necessary, in surrounding jurisdictions.
    The third priority is, creating and sustaining the change 
in the culture, and in the practice culture, to believe that 
children need permanent families, that the Agency can find 
permanent families for them, and that they can support children 
through to adulthood with permanent families.
    We talked a little bit about the older teens. Thirty-five 
percent of the children in foster care in the District right 
now are 14 and over. That is really a reflection of the 
historical inadequacies of the system.
    A lot of thought has to be given to those children right 
now about how to make the last years of their childhood 
meaningful and how they can be positioned to become adults with 
supports as they get older. We all know that 18 and 21 are not 
magic ages for being independent, so I think that is something 
that has to be focused on.
    Chairman Tom Davis. Thank you very much.
    Anything else anybody wants to add? It has been actually 
pretty complete with the questions and answers. It has been a 
great panel.
    Ms. Ashby. A couple of things. I have been taking notes 
here as various people have been speaking. I will be very 
brief.
    First, with regard to the data issues, I hope that Dr. 
Golden and other managers at CFSA do take the data issues 
seriously, not just in terms of going back and finding records 
of investigations and bringing them forward to the current 
system. That may not be as important as other information about 
the child in terms of the early history, family ties, and so 
forth, which are not in the current system.
    We have found the paper documents, paper case files, to be 
in disarray; to be voluminous, disorganized. So it certainly 
would take a great deal of effort to go into those files and 
pull out reliable data. We certainly aren't suggesting that any 
unreliable data be put into the system. That would make 
absolutely no sense.
    I am not at all surprised that other States have not done 
this. We will be issuing a report in a few weeks on what is 
going on with data systems across the United States for child 
welfare. As I said, I am not surprised at all that so few 
States are focusing on their current data.
    With regard to interjurisdictional adoptions, we issued a 
report June of last year on implementation of ASFA throughout 
the country. In that report, one of the things we noted was 
that a big problem--and I don't know if that is the case here 
in the District of Columbia--but something that might be 
considered the biggest problem with the interjurisdictional 
adoptions seem to be processes and the home studies, and what 
it takes to get a home study approved for a potential adoptive 
family in another jurisdiction.
    To the extent that those systems and processes can be 
streamlined, it would go a long way, I think, for improving the 
ability of child welfare agencies to bring about 
interjurisdictional adoptions.
    The other thing I want to market, a little bit, our 
reports. We have issued several reports, and we will be issuing 
reports that are applicable to what we have been talking about 
today, one about the recruitment and retention of welfare 
workers. We will make it available to you, Mr. Chairman, and 
Congresswoman Norton. It talks about a lot of the issues we 
have been talking about in the District of Columbia, and we 
have found that across the United States.
    We have also issued a report recently on the placement, 
voluntary placement of children in child welfare systems and 
juvenile justice systems because of mental health needs. There 
are some issues there that I think you might want to take a 
look at, if you have not.
    As I said, we will be issuing a report shortly on the 
status of data systems, which we think might be relevant. Thank 
you.
    Chairman Tom Davis. Thank you.
    Let me just say, I thank all of you for what you are doing. 
Despite the shortcomings in some of the areas here, I know you 
all have a great dedication to helping these children. We 
appreciate that very much, and want to try to add value to the 
equation.
    I want to thank all of you for taking the time from your 
very busy schedules to be here. I think it has been a very 
productive hearing.
    The hearing is adjourned.
    [Whereupon, at 12:05 p.m., the committee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T7806.091

[GRAPHIC] [TIFF OMITTED] T7806.092

[GRAPHIC] [TIFF OMITTED] T7806.093

[GRAPHIC] [TIFF OMITTED] T7806.094

[GRAPHIC] [TIFF OMITTED] T7806.095

[GRAPHIC] [TIFF OMITTED] T7806.098

[GRAPHIC] [TIFF OMITTED] T7806.099

[GRAPHIC] [TIFF OMITTED] T7806.100

[GRAPHIC] [TIFF OMITTED] T7806.101

[GRAPHIC] [TIFF OMITTED] T7806.102


</pre></body></html>
